<html>
<title> - FISCAL YEAR 2005 BUDGET</title>
<body><pre>[Senate Hearing 108-420]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-420

                        FISCAL YEAR 2005 BUDGET

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                                   ON

             PRESIDENT'S BUDGET REQUEST FOR INDIAN PROGRAMS

                               __________

                           FEBRUARY 11, 2004
                             WASHINGTON, DC


                    U.S. GOVERNMENT PRINTING OFFICE
91-835                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                      COMMITTEE ON INDIAN AFFAIRS

              BEN NIGHTHORSE CAMPBELL, Colorado, Chairman

                DANIEL K. INOUYE, Hawaii, Vice Chairman

JOHN McCAIN, Arizona,                KENT CONRAD, North Dakota
PETE V. DOMENICI, New Mexico         HARRY REID, Nevada
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
ORRIN G. HATCH, Utah                 BYRON L. DORGAN, North Dakota
JAMES M. INHOFE, Oklahoma            TIM JOHNSON, South Dakota
GORDON SMITH, Oregon                 MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska

         Paul Moorehead, Majority Staff Director/Chief Counsel

        Patricia M. Zell, Minority Staff Director/Chief Counsel

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

                           February 11, 2004

Statements:
    Akaka, Hon. Daniel K., U.S. Senator from Hawaii..............     3
    Campbell, Hon. Ben Nighthorse, U.S. Senator from Colorado, 
      chairman, Committee on Indian Affairs......................     1
    Conrad, Hon. Kent, U.S. Senator from North Dakota............    12
    Dorgan, Hon. Byron L., U.S. Senator from North Dakota........     2
    Edwards, Gary, chief executive officer, National Native 
      American Law Enforcement Association.......................    22
    Hall, Tex, president, National Congress of American Indians..     4
    Inouye, Hon. Daniel K., U.S. Senator from Hawaii, vice 
      chairman, Committee on Indian Affairs...................... 2, 30
    Johnson, Hon. Tim, U.S. Senator from South Dakota............     7
    Kashevaroff, Don, president and chief executive officer, 
      Alaska Native Tribal Health Consortium.....................    13
    LaMarr, Cindy, president, National Indian Education 
      Association................................................    15
    Murkowski, Hon. Lisa, U.S. Senator from Alaska...............    11
    Smith, H. Sally, chairman, National Indian Health Board......     8
    Sossamon, Russell, chairman, National American Indian Housing 
      Council....................................................    19

                                Appendix

Prepared statements:
    Action for Indian Health Campaign from California............    37
    Edwards, Gary................................................    39
    Hall, Tex....................................................    48
    Jack, Lyle, chairman, Oglala Sioux Tribal Education Committee    54
    Johnson, Hon. Tim, U.S. Senator from South Dakota............    58
    Kashevaroff, Don.............................................    59
    La Marr, Cindy...............................................    64
    Smith, H. Sally..............................................    70
    Sossamon, Russell............................................    78
    Steele, John Yellowbird, president, Oglala Sioux Tribe.......    84

                           February 25, 2004

Statements:
    Black, Douglas, director, Office of Tribal Programs, Indian 
      Health Service Department of Health and Human Services.....    94
    Campbell, Hon. Ben Nighthorse, U.S. Senator from Colorado, 
      chairman, Committee on Indian Affairs......................    91
    Garman, David, assistant secretary of energy efficiency and 
      rewewable energy, Department of Energy.....................   108
    Hartz, Gary, acting director, Office of Public Health, Indian 
      Health Service, Department of Health and Human Services....    94
    Henke, Tracy, deputy associate attorney general, Department 
      of Justice.................................................   110
    Johnson, Hon. Tim, U.S. Senator from South Dakota............    97
    Jones, Lonna, acting director, Elementary, Secondary and 
      Vocational Education, Division of the Budget Service, 
      Department of Education....................................   104
    Liu, Michael, assistant secretary, Public and Indian Housing, 
      Department of Housing and Urban Development................   107
    Martin, Aurene, principal deputy assistant secretary for 
      Indian Affairs, Department of the Interior.................    92
    Martin, Cathie, group leader, Office of Indian Education, 
      Department of Education....................................   104
    McSwain, Robert G., director, Office of Management Support, 
      Indian Health Service, Department of Health and Human 
      Services...................................................    94
    Murkowski, Hon. Lisa, U.S. Senator from Alaska...............    98
    Swimmer, Ross, special trustee for American Indians, 
      Department of the Interior.................................    92
    Vasques, Victoria, director, Office of Indian Education, 
      Department of Education....................................   104

                                Appendix

Prepared statements:
    Garman, David (with attachment)..............................   120
    Hartz, Gary..................................................   117
    Henke, Tracy (with attachment)...............................   136
    Liu, Michael.................................................   154
    Martin, Aurene (with attachment).............................   161
    Swimmer, Ross (with attachment)..............................   161
    Vasques, Victoria (with attachment)..........................   177

Note: Other material submitted for the record will be retained in 
  committee files.

 
                        FISCAL YEAR 2005 BUDGET

                              ----------                              


                      WEDNESDAY, FEBRUARY 11, 2004


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m. in room 
485, Senate Russell Building, Hon. Ben Nighthorse Campbell 
(chairman of the committee) presiding.
    Present: Senators Campbell, Akaka, Conrad, Dorgan, Inouye, 
Johnson, Murkowski, and Thomas.

        STATEMENT OF HON. BEN NIGHTHORSE CAMPBELL, U.S. 
         SENATOR FROM COLORADO, CHAIRMAN, COMMITTEE ON 
                         INDIAN AFFAIRS

    The Chairman. Good morning. The committee will be in 
session.
    On February 2, 2004, the President submitted to Congress 
his $2.23 trillion budget request for 2005. The request 
includes $10.8 billion for the Department of the Interior, with 
increases targeted to trust programs, law enforcement, fire 
management and others. This morning, the committee will hear 
from national tribal organizations to get their views on the 
request. On February 25, the agencies will be in to provide 
their views on the request.
    For the past several years Indian trust matters have come 
to dominate the agenda and the budget debate and very simply 
have overshadowed an awful lot of things that we ought to be 
doing. It should therefore come as no surprise that a total of 
$614 million in this budget is requested for trust-related 
activities in Department of the the Interior. Specifically, 
funding is requested for historical accounting, departmental 
reorganization, technology upgrades, records management, and 
the Indian land reconsolidation. Of that $614 million, darn 
little of it will go to education for youngsters, or health 
care, or money that is needed for senior citizens.
    In particular, I am encouraged by this budget's request of 
$75 million to buy back parcels of fractionated lands and 
return them to tribal ownership. There are a number of other 
items that need to be discussed in the weeks ahead such as 
Indian health care, funding for Indian housing, and the Federal 
commitment to Indian education. In the interests of time, since 
we have a number of committee members here today, I would like 
to yield to Senator Inouye for any opening statement he has.

 STATEMENT OF HON. DANIEL K. INOUYE, U.S. SENATOR FROM HAWAII, 
           VICE CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    Senator Inouye. Mr. Chairman, as you have indicated, ever 
since this committee was formed, there is one thing that we can 
always count on. There is never enough funding to carryout even 
the minimal nature of the programs that this committee would 
want.
    We have some good things on the horizon. The National 
Museum of the American Indian is scheduled to open this year. 
It has been a long wait, but I hope that all of you here will 
take advantage and just walk out there to see the new edifice.
    I have been advised that the mediation process on the trust 
account may be on the verge of some success. They are looking 
at a new proposal which seems acceptable to all parties.
    So there are happy signs on the horizon. I hope that we can 
come to a conclusion on this budget that we can handle early, 
and a bit more realistic than the one that the Administration 
has submitted.
    I thank you very much, sir.
    The Chairman. Thank you.
    Just as a reminder for those who are interested, the 
National Museum on the American Indian opening that Senator 
Inouye and I authorized years and years ago is going to take 
place the whole week of September 21. It is going to be a week-
long celebration. That will be the newest museum in the 
Smithsonian chain. We are very excited about that. We are 
encouraging all tribal people to try to participate in that 
grand opening, too.
    I think I will go back and forth here. Senator Thomas, did 
you have an opening statement?
    Senator Thomas. No; thank you, Mr. Chairman. I am just 
interested in hearing the information.
    The Chairman. Thank you.
    Senator Dorgan.

  STATEMENT OF HON. BYRON L. DORGAN, U.S. SENATOR FROM NORTH 
                             DAKOTA

    Senator Dorgan. Mr. Chairman, just briefly let me say how 
proud I am that Chairman Tex Hall from the Three Affiliated 
Tribes is here. He is also the president of the National 
Congress of American Indians. He is from my home State of North 
Dakota. He will be testifying today, and we really appreciate 
Chairman Hall's leadership.
    Let me also say we have just received the President's 
budget. I am very concerned about the BIA budget cut, tribal 
college funding cut, BIA school funding cut, Indian health 
facility construction cut, and so on.
    Look, we have a full-scale crisis, Mr. Chairman, on Indian 
reservations in housing, health care and education. We have to 
address it. The President's budget increases funding for wild 
horses and burros by $12 million. I am all for wild horses and 
burros, but I do not believe that they are more important than 
health care, education and housing needs of American Indians.
    It is also the case that when we say we do not have the 
money to do this, to invest in children and others on 
reservations, we just sent $19 billion-plus to Iraq, so they 
now have a housing program in Iraq paid by U.S. taxpayers' 
dollars. They have a health care program in Iraq. They have an 
education program in Iraq. If we can make that kind of 
investment in Iraq, we can make that kind of investment on 
America's Indian reservations in health care, education and 
housing for American Indians in this country.
    We will have a lot more to say about that. I do not want to 
have a lengthy statement here. But let me finally say one final 
point, we are blessed here in this capitol building to work 
under the watchful eye of a young woman named Sakakawea. We 
just finished a ceremony not long ago by which we in North 
Dakota put our second statue in statutory hall in the U.S. 
Capitol. I am proud to tell you that it is a young woman named 
Sakakawea and her child on her back. I think the only statue in 
the Capitol with actually two people, a young 16-year-old woman 
and her baby, who guided the Lewis and Clark expedition with 
such great skill. I am really proud of that. I tell you that 
only because Chairman Hall was here that day and was part of 
that ceremony, and I am really pleased he was.
    The Chairman. Senator Akaka, did you have a statement?

  STATEMENT OF HON. DANIEL K. AKAKA, U.S. SENATOR FROM HAWAII

    Senator Akaka. Thank you very much, Mr. Chairman.
    I want to thank you and Vice Chairman Inouye for holding 
this important hearing today, as we examine the President's 
fiscal year 2005 budget request for Indian programs.
    I want to take the time to say thank you to the witnesses 
who are here and to welcome them here.
    Over the years, the committee has worked with Indian 
country to address challenges facing native people across the 
country. Here is another one of those efforts. We welcome the 
advances that have been made, as was mentioned, in health care, 
but to continue making progress in this and other areas such as 
education and other social areas really needs more work. I want 
to tell you that I am here to join my colleagues in continuing 
to work with them to increase funding to meet the needs of all 
native peoples.
    Thank you very much, Mr. Chairman.
    The Chairman. Thank you.
    Now, if the panel would come and take the table. Tex Hall, 
president of NCAI; Sally Smith, chairman of the National Indian 
Health Board from Denver; Don Kashevaroff, the president and 
chief executive officer of the Alaska Native Tribal Health 
Consortium; Cindy LaMarr, president of the National Indian 
Education Association; Russell Sossamon, chairman of the 
National American Indian Housing Council; and Gary Edwards, the 
CEO of the National Native American Law Enforcement 
Association.
    We will start in that order, and would tell the panel that 
all of your written testimony will be included in the record, 
so you do not need to read it verbatim. If you would like to ad 
lib part of your testimony, that would be fine. If you would 
just go ahead in the order that I announced you.
    President Hall, why don't you go ahead and proceed.

STATEMENT OF TEX HALL, PRESIDENT, NATIONAL CONGRESS OF AMERICAN 
                            INDIANS

    Mr. Hall. Thank you, Mr. Chairman, Mr. Vice Chairman, 
Senators Dorgan, Akaka, Thomas, and the members of the 
committee. We are very pleased to be able to present testimony 
today on this very important hearing on the President's budget. 
We are representing of course the National Congress of American 
Indians, over 250 tribes.
    Mr. Chairman, as you mentioned, the President on February 2 
proposed a $2.4 trillion-budget for the fiscal year 2005 year 
that includes level funding and numerous decreases for Indian 
programs, continuing a trend of consistent declines in Federal 
per capita spending for Indians compared to per capita 
expenditures for the population at large.
    We are deeply disappointed that the budget request does not 
reflect leadership to take on the quiet crisis of underfunding 
for Federal Indian programs that was underscored by a 
comprehensive 2003 report of the bipartisan United States Civil 
Rights Commission. While we recognize that this budget reflects 
fiscal belt-tightening across the board, we believe this quiet 
crisis should be a national priority that we need to address. 
We hope that Congress and this committee will work with the 
tribes to see this priority better reflected in our budget.
    The Administration's proposed budget does not reflect the 
priorities of Indian country to fully fund Indian health care, 
tribal priority allocations, contract support, road 
maintenance, school facilities and services at the local level. 
These priorities have been laid forth by the BIA Tribal Budget 
Advisory Council, of which I am a member, as well as all of the 
12 regions are represented in the United States, as well as by 
tribal leaders in budget consultations with Indian Health 
Services and the other Federal agencies. We ask that these 
recommendations be taken more closely to heart as the 2005 
budget advances.
    In addition to addressing the troubling general trend of 
decreased Federal fulfillment of trust obligations to tribes, 
we want to highlight three key concerns within the proposed 
budget. One is self-determination programs, which throughout 
the budget initiatives within the Administration has expressed 
consistent support for, have not only failed to receive needed 
funding increases, but face cuts which will deeply hobble 
tribes' ability to effectively assume local control in the face 
of shrinking TPA budgets, inadequate 638 pay cost increases, 
insufficient contract support funding, and grossly underfunded 
administrative cost grants for schools.
    Second, funding for law enforcement in Indian country would 
continue a troubling downward trend under the 2005 budget 
request. At a time when the national concerns are for homeland 
security and public safety, most require a concerted Federal 
support. Essential Department of Justice funding for tribal 
courts would be cut by $7.6 million. In Indian country, prison 
detention grants would be cut by $2.5 million, and a 50-percent 
increase in funding for tribal law enforcement is necessary to 
provide for basic public safety in Indian country.
    Third, precious resources continue to be diverted to the 
Department of the Interior's reorganization, which tribes have 
opposed as the way it is proceeding and which fails to take 
into account the need for local flexibility for the results of 
the 2(B) study which was recently completed by the Department. 
More effective use of funds is demonstrated by the focus, for 
example, on the funding for the land consolidation, which is 
proposed within the budget, which we support. Until a better 
plan which reflects consultation with the tribes who know best 
what works in trust management at the local level, a moratorium 
should be placed on further funding of the reorganization.
    In the BIA budget, the costs of OST and BIA reorganizations 
are effectively punishing the tribes for the Department's own 
trust mismanagement, a double injury to individual and tribal 
trustees hurt by this mismanagement.
    With the continuing focus on a reorganization plan which 
NCAI and numerous tribes have opposed, the 2005 budget proposes 
a net increase of $42 million in trust-related programs, and 
cuts other programs to offset trust increases, resulting in 
basically a decrease in critical tribal funding within BIA of 
over $100 million. So other key areas of the BIA budget remain 
deeply underfunded, including TPA. Unfortunately, the proposed 
budget does not even address inflationary costs. So NCAI 
recommends at least a 5-percent increase in TPA for 2005 to 
address the inflation.
    The budget request includes a significant increase of $53.3 
million to the Indian land consolidation account, a welcome 
increase to this area which is strongly supported by NCAI and 
tribes, is vital to the long-term trust management reform. 
However, $109 million would be directed toward a historical 
accounting in the absence of any acceptable parameters for how 
to undertake this extraordinarily complex task.
    The Office of Special Trustee would receive a $113.6 
million increase, for a total of $322.7 million, which is 
partially offset by a $63 million-cut to BIA construction and a 
$13.5 million-cut to BIA other recurring programs. We believe 
this is unacceptable. Within BIA construction accounts, 
education construction will lose $65.9 million, despite a 
terrible backlog of new school construction needs that everyone 
agrees must be addressed promptly.
    Tribal leaders have repeatedly emphasized that funding 
needed to correct problems and inefficiencies in DOI trust 
management must not come from existing BIA management must not 
come from existing BIA programs or administrative moneys. Yet 
once again, this year's budget reduces expected funding for 
tribes to fund a reorganization that we have opposed.
    In addition to contract support costs, this budget reflects 
a $2 million-reduction in funding for contract support. An 
additional $25 million is needed in BIA to fully fund contract 
support. We need to stop penalizing tribes that operate BIA and 
IHS funding under self-determination.
    NCAI and the United States Civil Rights Commission have 
called for badly needed increases to funding for BIA school 
operations. But rather than addressing the tremendous need that 
exists for classroom dollars, transportation and contract 
support for tribally operated schools, this critical account 
would be decreased under the 2005 budget request.
    Within the added burden of implemented requirements of No 
Child Left Behind, additional funding for ISEP is critical. 
NCAI also remains deeply concerned about the impact of the 
Office of Indian Education program at BIA is consolidation of 
line officers on BIA school functions that would reduce 
services as tribes are trying to become in compliance with the 
No Child Left Behind Act.
    In Indian health care, it marks a rise of $45 million over 
the 2004 enacted level, but still falls far short of addressing 
the overall growth in population and rapidly increasing medical 
costs which have resulted in expanded unmet needs in Indian 
country. IHS's real spending per American Indian has fallen 
sharply over time, and now stands at less than 50 percent of 
what is spent for health care for Federal prisoners. Proposed 
funding for Indian health care facilities construction would be 
cut more than half under this proposal.
    Funding for maintenance and improvement, as well as medical 
equipment for Indian health facilities would receive level 
funding in the proposed budget, despite a crisis situation of 
aging facilities and equipment.
    In Contract Health Services, in my tribe failure of the IHS 
to reimburse for contract care in a timely fashion has damaged 
the credit ratings of many tribal members and impacted their 
capacity to qualify for home ownership mortgages. NCAI 
recommends an increase to Contract Health of $120 million in 
the 2005 budget.
    We are heartened to see the $10 million increase in the BIA 
public safety and justice account, most of which will fund new 
operations at eight BIA detention facilities. These funds are 
sorely needed and the increase will be well received. We remain 
concerned, however, that this funding does not meet the need 
for policing and on-the-ground patrol services. At a time when 
homeland security and public safety concerns most require 
concerted Federal support for law enforcement in Indian 
country, a 50-percent increase for funding for tribal law 
enforcement is necessary.
    Tribal leaders share the President's concern for homeland 
security. We ask that a concerted effort be made to ensure that 
tribal areas have equal access to the 2005 funds directed 
toward homeland security and public safety.
    The Department of HHS has reported that 8 percent of Indian 
homes lack running water, compared to less than 1 percent of 
the non-Indian population homes; 33 percent of tribal homes 
lack adequate solid waste management systems. Yet as reflected 
in our written testimony, critical programs to improve these 
infrastructure shortfalls would be cut under the 2005 budget.
    Finally, under tribal colleges, we welcome the increases in 
funding for the Native American Institution Endowment Fund 
which would be increased by $3 million in the Department of 
Agriculture. But the President's budget would cut nearly $6 
million from BIA funding for tribal colleges for a third year 
in a row. The budget also recommends no funding for the United 
Tribes Technical College in Bismarck, North Dakota, a very 
important tribal institution which NCAI strongly supports.
    Mr. Chairman and members of the committee, again NCAI 
realizes Congress must make difficult budget choices this year. 
As elected officials and tribal leaders, we certainly 
understand the competing priorities that you must weigh over 
the coming months. However, the Federal Government's solemn 
responsibility to address the serious needs facing Indian 
country remains unchanged whatever the economic climate and 
competing priorities there are. So we at NCAI urge you to make 
a strong across-the-board commitment to meeting the Federal 
trust obligation by fully funding those programs that are vital 
to the creation of a vibrant Indian Nation.
    So Mr. Chairman, thank you for allowing me to testify. I 
will be happy to answer questions later on.
    [Prepared statement of Mr. Hall appears in appendix.]
    The Chairman. Thank you.
    Next we will go to Ms. Smith.
    Ms. Smith. Thank you.
    The Chairman. I tell you what, just 1 moment. We did have a 
couple of members come in.
    Did you have a statement that you needed to do before you 
have to leave, Senator Conrad or Senator Johnson, either one?
    Senator Conrad. I would be happy to have the witnesses 
proceed, Mr. Chairman.
    The Chairman. Okay. Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman.
    I would like to make a very brief statement, if I may.
    The Chairman. Go ahead. I do not know what your schedule 
is.

 STATEMENT OF HON. TIM JOHNSON, U.S. SENATOR FROM SOUTH DAKOTA

    Senator Johnson. I want to say, Chairman Campbell and Vice 
Chairman Inouye, thank you for holding this hearing on such a 
vital issue. I will keep my comments very brief, but I do want 
to highlight a couple of problems that frankly I think are of 
enormous importance.
    Needless to say, I am grossly disappointed with the 
President's priorities; that is another way of saying with his 
values. We are spending $1 billion a week in Iraq. The 
President is proposing billions of dollars of additional tax 
cuts for America's wealthiest families, while at the same time 
proposing to cut funding for construction of hospitals and 
schools here at home.
    The President recommends IHS health facilities construction 
be gutted, from $94 million in 2004 to $42 million in 2005. 
Additionally, the BIA school construction account is being cut 
by $65.9 million, while over 40 schools are desperately waiting 
for construction funds now. The backlog is long and the need is 
immediate, and the President's proposal makes no sense 
whatever.
    Broadly speaking, I am concerned that the President wants 
to fund trust fund reform at the expense of other Indian 
programs. While trust fund reform is necessary, I am encouraged 
that the President has increased the amount of money going 
toward the buying back of fractionalized land. It is a matter 
of great importance to me.
    The injustice in the budget I think is rife with examples 
important to my South Dakota tribes, such as the President's 
request pertaining to the tribal priority allocation or TPA 
funding. The President's request has a minuscule increase. 
These TPA funds are critical because tribes use them to 
carryout day-to-day government programs and functions. The 
President's request in this area is simply inadequate, and 
therefore impeding self-determination.
    Within BIA and OST, there is an initiative which I found 
particularly interesting, the creation of a new Office of 
Tribal Consultation at BIA with a whopping $1.1 million budget. 
The President apparently wants to create an office to do a 
function that the Administration is obligated to do under 
treaty and trust obligations as it is.
    I am sure that President Steele of the Oglala Sioux Tribe 
and Councilman Jack from OST, who are with us today, can think 
of a lot better things that they could use $1.1 million for in 
the Pine Ridge Reservation, where as we speak their 
constituents are wondering how they are going to heat their 
homes tomorrow without spending an additional $1 million to do 
obligations that this Administration already had in the first 
place.
    As the testimony today will reflect, every aspect of Indian 
funding is hurting, housing, health care, education, 
infrastructure. I understand this is a tough fiscal year. I 
understand that the tribes will not get every need fulfilled. 
But there are a lot of problems with the President's budget. We 
have got to do better. As a member of the Budget and the 
Appropriations Committees, and working closely with Chairmen 
Campbell and Inouye, I will do what I can to correct these 
problems and to put our priorities and our values back where 
they ought to be.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    You probably know, Tex, there are five, if I am not 
mistaken, of the members on this committee are also 
appropriators, as Senator Johnson mentioned. As in the past, 
you need to remember that the budget that comes over from the 
White House is a request, and rarely ends up the way any 
President asks for. We have a lot to say about what is 
increased and what is decreased. I know I can speak for the 
other members who are appropriators on this committee that we 
are going to do our best to make sure that the needs are met.
    Mr. Hall. That is very encouraging. Thank you, Mr. 
Chairman.
    The Chairman. Okay, now let's go on to Sally Smith, please. 
Welcome, Sally.

 STATEMENT OF H. SALLY SMITH, CHAIRMAN, NATIONAL INDIAN HEALTH 
                             BOARD

    Ms. Smith. Thank you, Chairman Campbell, Vice Chairman 
Inouye and distinguished members of the Senate Committee on 
Indian Affairs. I am H. Sally Smith, chairman of the Bristol 
Bay Area Health Corporation in Southwest Alaska.
    On behalf of the National Indian Health Board, it is an 
honor and a pleasure to offer my testimony this morning on the 
President's fiscal year 2005 budget for Indian programs. The 
National Indian Health Board serves federally recognized 
American Indians and Alaska Native tribal governments in 
advocating for the improvement of health care delivery to 
American Indians and Alaska Natives. Our board members 
represent each of the 12 areas of the Indian Health Service and 
are elected at-large by the respective tribal governments 
within their regional areas. I am pleased to tell the committee 
that the entire National Indian Health Board is with us this 
morning.
    I will keep my remarks to less than 5 minutes, and ask that 
my statement be entered into the record.
    The Chairman. It will be.
    Ms. Smith. With release of the President's budget, as 
expected things look challenging. For the Indian Health 
Service, the request is $2.97 billion, which constitutes a 1.6-
percent increase over the fiscal year 2004 request or $45 
million. Tribal leaders gather annually to develop a needs-
based budget for Indian Health Service funding. The needs-based 
budget developed for fiscal year 2005 documents the Indian 
Health Service health care funding needs at $19.4 billion. In 
light of the documented needs for Indian country, $2.97 billion 
falls well short of the level of funding that is actually 
needed.
    Even though we face an uphill climb, given that the 
President wishes to hold non-defense discretionary spending to 
one-half of 1 percent, we will not abandon our efforts to see 
that the health care crisis in Indian country is addressed, and 
we call upon Congress to do the same.
    Health care spending for American Indians and Alaska 
Natives lags far behind spending for other segments of society. 
My written statement provides detailed recommendations 
regarding the fiscal year 2005 budget request, but because of 
my limited time this morning, I want to focus on the importance 
of health promotion and disease prevention, and the need to 
increase such activity in Indian country.
    One of the most valuable and cost-effective ways to improve 
a person's health and well-being is through health promotion 
and disease prevention. It is a wise investment. The 
Administration has placed a high priority on health promotion 
and disease promotion as evidenced by the steps to a healthier 
U.S. initiative. We could not agree more. The Indian Health 
Service, as well as the National Indian Health Board, are 
increasing efforts to emphasize the value of health promotion 
and disease prevention.
    As a member of the IHS Health Promotion and Disease 
Prevention Policy Advisory Committee, I believe that with a 
small financial commitment from Congress to boost prevention in 
Indian country, we will see a vast improvement in several 
critical areas.
    As the committee is keenly aware, no other segment of the 
population is more negatively impacted by health disparities 
than the American Indian-Alaska Native population. Tribal 
members suffer from disproportionately higher rates of chronic 
disease and other illnesses. Heart disease and cancer are the 
leading causes of death for American Indians and Alaska 
Natives. The rate of cardiovascular disease among American 
Indians and Alaska Natives are twice the amount for the general 
public, and continue to increase.
    The prevalence of diabetes is more than twice that for all 
adults in the United States and the mortality rate from chronic 
liver disease is more than twice as high. There are 20 percent 
fewer American Indians and Alaska Native women that receive 
prenatal care than all other races, and they engage in 
significantly higher rates of negative personal health behavior 
such as smoking and alcohol and illegal substance consumption 
during pregnancy.
    While these disparities are largely attributable to a lack 
of adequate funding, we could make a substantial impact if 
health promotion and disease prevention efforts are expanded. 
The President's budget provides a $2-million increase to the 
Indian Health Service for health promotion and disease 
prevention efforts. While we desperately need additional 
funding in all services, I ask that Congress pay particular 
attention to this area and make a real commitment to providing 
Indian country with the tools to combat obesity, improper 
nutrition, inactivity and other negative health behaviors.
    The President's budget includes $103 million for sanitation 
construction, an increase of $10 million. This increase 
demonstrates the Administration's commitment to providing safe 
water and waste disposal to an estimated 22,000 homes. Proper 
sanitation facilities play a considerable role in the reduction 
of infant mortality and deaths from gastrointestinal disease in 
Indian country.
    We are also pleased that the Administration has requested 
$3 million for new epidemiology centers to serve the Navajo, 
Oklahoma, Billings, and California areas, as well as increasing 
support for the seven existing centers, which currently serve 
about one-half of the IHS-eligible service population.
    The budget request includes $497 million for Contract 
Health Services, which is an additional $18 million. While we 
are very thankful for any increase, the proposed level of 
funding is so limited that only life-threatening conditions are 
normally funded. The documented need for Contract Health 
Services exceeds $1 billion. At present, less than one-half of 
the Contract Health Services need is being met, leaving too 
many Indian people without access to necessary medical 
services. We recommend an increase of $175 million, which would 
raise American Indian-Alaska Native tribes to approximately 60 
percent of need.
    The President's fiscal year 2005 budget request does not 
provide an increase for contract support costs. An increase in 
contract support costs is necessary because as tribal 
governments continue to assume control of new programs, 
services, functions and activities under self-determination and 
self-governance, additional funding is needed.
    Tribal programs have clearly increased the quality and 
level of services in their health systems fairly significantly 
over direct service programs, and failing to adequately fund 
contract support costs is defeating the very programs that 
appear to be helping improve health conditions for American 
Indians and Alaska Natives. We strongly urge reconsideration of 
this line item in the proposed budget.
    As tribes increasingly turn to new self-determination 
contracts or self-governance compacts, or as they expand the 
services they have contracted or compacted, funding necessary 
to adequately support these is very likely to exceed the 
proposed budgeted amount. We ask you to fund contract support 
costs at a level that is adequate to meet the needs of tribes 
and to further the important trust responsibility charged to 
the Federal Government. We recommend an additional $100 million 
to meet the shortfall for current contracting and compacting.
    According to the President's fiscal year 2005 budget, the 
number of tribally managed IHS programs continues to increase 
both in dollar terms and as a percentage of the whole IHS 
budget. Tribal governments will control an estimated $1.8 
billion of IHS programs in fiscal year 2005, representing 56 
percent of the IHS total budget request. Because of this, it is 
critical that funding for self-governance be provided in a 
manner reflective of this.
    Finally, for tribal governance to continue managing IHS 
programs and other direct services tribes could consider 
compacting, we ask that funding for self-governance be 
increased to $20 million.
    The President's fiscal year 2005 budget request increases 
spending for homeland security by 10 percent. The budget 
request reflects the priorities of the United States with 
regard to health and safety concerns relating to homeland 
security. It is important to note that along with the 
Department of Defense and Veterans Affairs health systems, the 
IHS occupies a unique position within the Federal Government as 
a direct health care provider.
    Therefore, we are requesting that funding be added during 
fiscal year 2005 to help the Indian Health Service and tribal 
governments prepare for and respond to potential terrorist 
attacks, including increases for data systems improvements. It 
is imperative that we continue to pursue tribal inclusion in 
the national homeland security plan.
    On behalf of the National Indian Health Board, I would like 
to thank the committee for its consideration of our testimony 
and ask for your continued interest in the improvement of 
health for American Indians and Alaska Natives.
    Thank you.
    [Prepared statement of Ms. Smith appears in appendix]
    The Chairman. Thank you, Sally.
    Before we go on to Don Kashevaroff, Senator Murkowski, did 
you have a statement, since your constituent just made her 
presentation?

   STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR FROM ALASKA

    Senator Murkowski. Mr. Chairman, thank you. I wish that I 
had been here at the very beginning, but I think I did get most 
of Sally's testimony, so I appreciate that.
    I do have an opening statement, Mr. Chairman. I will submit 
it for the record. I would just like to state I understand that 
we were scheduled, as is tradition here in the Senate, to hear 
the agency folks first, and that was canceled.
    The Chairman. It has just been postponed. It will be next 
week.
    Senator Murkowski. Postponed, right. But you kept this 
hearing so that the constituents are actually heard from first, 
which is good. I would hope that the agency folks are listening 
to the comments that we will receive today. I know that when we 
do hear from the agencies, my questions will be probably as a 
consequence of some of the comments that we hear today.
    I do welcome Sally Smith. I also welcome Don Kashevaroff, 
also from Alaska, and I am pleased once again to have their 
very fine testimony here this morning.
    I think, as were many of us, we were a little disappointed 
in seeing the budget that we have before us. I have some very 
specific issues in certain of those areas. I think my 
constituents know well of those, but we will be probing into 
them in a little greater detail as we move forward with this 
process.
    So Mr. Chairman, if I can submit my opening remarks.
    The Chairman. Yes; it will be included in the record. You 
bet.
    [Prepared statement of Senator Murkowski appears in 
appendix.]
    The Chairman. Mr. Kashevaroff, why don't you go ahead.
    Senator Conrad. Mr. Chairman.
    The Chairman. Excuse me. Yes, Senator Conrad.
    Senator Conrad. Might I take just 1 moment of time at this 
juncture.
    The Chairman. Sure.
    Senator Conrad. I appreciate that.

    STATEMENT OF KENT CONRAD, U.S. SENATOR FROM NORTH DAKOTA

    I wanted to thank our chairman, Tex Hall, for being here; 
chairman of Three Affiliated Tribes. Tex has really done a 
superb job as president of the National Congress of American 
Indians. He is a leader. This is a time that requires 
leadership.
    As a member of the Senate Committee on the Budget and a 
member of this committee, I must say in looking at this budget, 
I think it is deeply flawed; deeply flawed in its priorities; 
deeply flawed in its commitment to one place where the Federal 
Government has a unique responsibility. That is with respect to 
our Native American citizens.
    The President's priorities strike me as completely out of 
whack. On the one hand, he says we should make permanent the 
tax cuts previously enacted. Let me just say that an accountant 
friend of mine from back home called me just a few weeks ago 
and told me had just taken in the tax return of one of his 
clients who had $1 million of dividend income for last year. He 
had just filled out his tax return for him, and he is going to 
get a refund of $250,000; an elderly man with no family, no 
financial needs. Under the tax plan the President pushed 
through, that gentleman is going to get a $250,000 tax refund, 
that in the context of the biggest deficit in the history of 
the United States. The President's answer is, make that plan 
permanent.
    Then on the other hand, he turns to the spending side of 
the equation and he says, we are going to eliminate all of the 
funding for the United Tribes Technical College in my home town 
of Bismarck, ND, a place that gives hope and opportunity to 
thousands of students, that has the chance of giving people a 
lift, a chance to make the most of their God-given talent.
    And the President's budget says cut the tribal colleges by 
10 percent; cut them. In my experience in Indian country, the 
greatest hope lies with those tribal college institutions. I 
have seen the looks on the faces of those graduating. I have 
seen their pride and accomplishment. I have seen their sense 
that they can make a better future for themselves and their 
families. It is a riveting thing to go to the graduation 
ceremony of a tribal college.
    Those opportunities, which are already a fraction of what 
we provide traditionally Black colleges, a fraction of what we 
provide community institutions in this country. The President's 
answer is cut them. Why? Because we have to apparently provide 
for tax relief for the wealthiest among us, when we can't pay 
our bills now.
    These are priorities I do not think reflect the priorities 
of the American people. I think if we sat down around the 
kitchen table in North Dakota and were working out a budget, we 
would say, you know, we should have a United Tribes Technical 
College; we should not eliminate that institution; we should 
not be cutting tribal colleges; we should not be cutting 
housing opportunities; we should not be underfunding the 
provisions for health care for Native Americans when the 
Federal Government has a direct obligation and responsibility, 
so that we can turn around and give a gentleman with a million 
dollars of income a $250,000 tax refund.
    What kind of priorities are these? They are certainly not 
priorities that I share. And to say we ought to make permanent, 
make permanent that kind of tax relief in the face of a flood 
of red ink and unmet needs that are clear and acute.
    So Mr. Chairman, I hope on a bipartisan basis that we are 
able to go back and change these priorities and get this 
country back on a course that makes more sense.
    I thank the Chairman and I thank my colleagues.
    The Chairman. Okay, thank you.
    Don, why don't you proceed.

 STATEMENT OF DON KASHEVAROFF, PRESIDENT AND CHAIRMAN, ALASKA 
                NATIVE TRIBAL HEALTH CONSORTIUM

    Mr. Kashevaroff. Thank you, Chairman Campbell and Vice 
Chairman Inouye, and Senator Murkowski and members of the 
committee, for the opportunity to testify on the President's 
2005 budget for the Indian Health Service.
    My name is Don Kashevaroff. I am the president of Seldovia 
Village Tribe in Southcentral Alaska, that serves about 500 
Alaska Natives. I am also chair and president of the Alaska 
Native Tribal Health Consortium, which serves 120,000 Alaska 
Natives and American Indians. I also serve as the chair of the 
Tribal Self-Governance Advisory Committee which serves one-half 
of the tribes of this great Nation.
    I know we have limited time today so I really just want to 
touch on two important issues, Mr. Chairman. That is, inflation 
and contract support costs.
    One of the first things I learned in business school was 
the time value of money. To put this simply, because of 
inflation, $1 yesterday was worth more than $1 today. Well, Mr. 
Chairman, inflation really is our deadly enemy here. This might 
not seem possible, but every year that IHS budgets do not keep 
up with inflation, our people are suffering.
    In 2004, I just received a 1.2-percent increase across the 
board. Medical inflation was actually 8 to 10 times more than 
this. In my written testimony, I included some references to a 
U.S.-Government study that showed that Medicare has been rising 
nearly 10 percent a year; Medicaid costs over 10 percent a 
year; and prescription drug costs 15 percent a year.
    Compare this to IHS's cost increases that we have been 
getting. We have been getting between one and three percent for 
the last couple of years. Even in our best year a couple of 
years ago when we had a 3.2-percent increase, we were still at 
least 7 percent behind inflation.
    My question, I guess, Senators, is how are we going to get 
rid of the health disparities that Native Americans face today 
if we can't even keep up with inflation that we have right now? 
I know that you are all aware of the various challenges that 
American Indians face, but the President's 2005 budget 
continues this deadly trend. Funding increases for Medicare in 
this budget are much higher than those for IHS. It seems odd 
that if one can recognize that Medicare costs have to increase, 
why can't we recognize that IHS costs also must increase? They 
both are for direct service in the end. We need to look at the 
increases not only to keep up with inflation, but also to close 
the gap of disparities.
    So Mr. Chairman, I ask that you do what you can to have a 
12-percent increase across the board in the IHS budget this 
year, to meet the inflation and also to make up some of the 
ground we lost last year.
    I also want to talk to you about the very important, but 
misunderstood funding need, and that is contract support costs. 
Contract support costs are mutually agreed upon costs between 
the U.S. Government and the tribe. These costs are for part of 
the costs of running the programs that we have been taking 
over. The tribe and the Government mutually agree on these 
costs. It is not something that the tribes pull a number out of 
the air and say, this is what it costs us. It is just a 
mutually agreed upon thing through the different circulars that 
everyone knows what is accurate and what is correct. But when 
it comes time to pay these costs, after the tribe has performed 
their service, the Government neglects to pay the full amount.
    This would be something like if I took an example maybe in 
the private sector, that if a government was going to outsource 
something for a product or services, or maybe like buy a jet 
fighter, the Government would sit down with the contractor and 
work out the contract and negotiate a cost or negotiate a 
price. And then after the company went out and did their deal 
and made the jet fighter and gave it to the Government, the 
Government would not turn around and say, oh, we are going to 
short you on some of the money; we decided that we do not have 
enough; we are only going to pay 80 percent of what we agreed 
to. That would be ludicrous to do that, and it would be very 
dishonest to do that.
    But when it comes to Native American tribes that diligently 
perform their duty and perform their contracts, their mutually 
negotiated contracts, the U.S. Government does just that. They 
turn around and say, well, you did your work; thank you, but we 
have decided that even though we agreed on what we should pay 
you, we are going to pay you less now. That is really 
inexcusable in my mind, sir.
    Why are the first Americans treated differently in this 
respect? I cannot figure that out. In my training in ethics in 
business school, they never taught me that it is okay that if a 
business is run by the tribes that you do not have to treat 
them the same. I was brought up knowing that when you make a 
deal, a deal is a deal. You pay your debts, and if you do not 
have the right deal, then you go negotiate a new one, but you 
don't welsh on what you have.
    So my concern, sir, is that this has been going on for many 
years. You heard testimony that the need is around $100 
million, and we really need to have contract support costs 
paid. The tribes of this country that have taken over their own 
programs have become very efficient; have become very good at 
running health care. At the same time, the U.S. Government has 
decided to not fully fund them and all their costs to take over 
the Indian Health Service programs.
    So Mr. Chairman, I would ask that you do everything in your 
power to correct this serious contractual embarrassment, 
really, and fully fund contract support costs for the first 
Americans.
    I know that America is, in my mind, the greatest country on 
earth. I think most folks know that. The world kind of looks to 
us. I know there are a lot of people in the world that do not 
like us, but the whole world does look to us because we protect 
the world. We drive its wealth. We provide health services to 
countries across the oceans. And we really stand for democracy 
in this world, and by democracy, self-determination.
    So I want to know why in this multi-trillion budget, why 
can't we keep the first Americans from falling further behind 
in health care? It is often said that if we can put a man on 
the moon, why can't we do this or why can't we do that. But I 
understand that pretty soon maybe I will be able to say, if we 
can put a person on Mars, why can't we find adequate funding 
for IHS?
    I think that is what it is coming to, sir. I know that this 
committee knows the details. I know you are well-educated and 
versed on the problems. I ask that all the members of this 
committee work hard to educate the rest of the Senate and the 
rest of the government on the needs of Indian country, sir.
    Thank you very much.
    [Prepared statement of Mr. Kashevaroff appears in 
appendix.]
    The Chairman. Thank you, Don.
    Ms. LaMarr.

STATEMENT OF CINDY LaMARR, PRESIDENT, NATIONAL INDIAN EDUCATION 
                          ASSOCIATION

    Ms. LaMarr. Thank you, Chairman Campbell and Vice Chairman 
Inouye. It is an honor to be here before. Also, thank you to 
the members of the Senate Committee on Indian Affairs. Thank 
you for this opportunity to be here before you to testify on 
problems with the fiscal year 2005 budget. As I heard here, you 
understand and so we are speaking to the choir, so to speak, 
when it comes to education matters.
    I am the president of National Indian Education 
Association. I am Pit River Paiute from Northern California. We 
have the largest population of American Indian students in the 
Nation in California and some other problems.
    NIEA was founded in 1969 and is the largest organization in 
the Nation dedicated to Indian education advocacy issues, and 
embraces the membership of over 4,000 American Indian, Alaska 
Native and Native Hawaiian educators, tribal leaders, school 
administrators, parents, teachers and students.
    NIEA makes every effort to advocate for the unique 
educational and culturally related academic needs of Native 
students, and to ensure the Federal Government upholds its 
immense responsibility for the education of American Indian and 
Alaska Natives through the provision of direct educational 
services.
    This is incumbent upon the trust relationship of the U.S. 
Government and includes the responsibility of ensuring 
educational equity and access. Recognition and validation of 
the cultural, social and linguistic experiences of these groups 
is critical in order to guarantee the continuity of Native 
communities. The way in which instruction and educational 
services are provided is critical to the achievement of our 
students, for them to obtain the same standards of students 
nationwide.
    Making education a priority for native students: In the 
Senate committee's views and estimates report for last year's 
fiscal year 2004 budget request for Indian programs, it states 
that educational attainment for native youth is deficient 
compared with other groups in the United States. An aggravating 
factor in educational achievement is the continued inability of 
the Federal Government to ensure adequate, safe and clean 
educational facilities conducive to learning.
    The No Child Left Behind Act: Although NIEA supports the 
broad-based principles of No Child Left Behind, there is 
widespread concern about the many obstacles that NCLB presents 
to Indian communities, who often live in remote, isolated and 
economically disadvantaged communities. There is no one more 
concerned about accountability and documenting results that the 
membership of our organization. But the challenges many of our 
students and educators face on a daily basis make it difficult 
to show adequate yearly progress or to ensure teachers are the 
most highly qualified.
    The requirements of the statute and its timeframe for 
results do not recognize that schools educating native students 
have an inadequate level of resources to allow for the 
effective development of programs known to work with native 
students. For example, the appropriation available under Title 
VII of No Child Left Behind provides only a few hundred dollars 
per student to meet the special education and culturally 
related needs of our students.
    The implementation of the statute does not include within 
the definition of ``highly qualified teacher,'' the idea that 
teachers educating native students actually have the training 
and demonstrated experience in order to be effective teachers 
of native students. Not only is there inadequate funding for No 
Child Left Behind, there are serious concerns about confused 
guidance on adequate yearly progress mandates, inadequate 
assessment examples for limited English proficient students, 
weakened protections to prevent high school dropout rates to 
occur, a lack of focus on parental involvement, recognition of 
para-professionals' qualifications, and a basic denial of civil 
rights protections for children.
    The fiscal year 2005 President's budget leaves Indian 
children behind. As I heard this morning, I think you are all 
aware of that. President Bush's budget proposes a 4.8-percent 
increase to education, $266.4 billion in total budget authority 
for the Department of Education. But Indian program funding 
remains at the same level as 2004, with some programs slated 
for elimination.
    In addition, $120.9 million for fiscal year 2005 is down 
from the fiscal year 2003 level of $121.6 million. The request 
for Alaska Native education and Native Hawaiians is capped at 
$33.3 million for each group, or at the same level as 2004. 
Native communities are not only denied equal access to a 
quality education at fiscal year 2003 levels, they are now 
asked to shoulder an even more atrocious burden by being 
subjected to even deeper cuts.
    The fiscal year 2005 Department of Education budget 
request: Nearly 90 percent of the approximately 500,000 Indian 
children attend public schools throughout the Nation. Indian 
students who attend these schools often reside in economically 
deprived areas and are impacted by programs for disadvantaged 
students. The President's 2005 budget fails to fully fund the 
title I low-income school grants programs critical to closing 
achievement gaps. An increase of $1 billion for this program 
still leaves more than $7 billion below the authorized level 
for No Child Left Behind.
    The Individuals with Disabilities Education Act, or IDEA, 
is proposed to be funded at less than half the full funding 
level when IDEA was first adopted in 1975. These inadequate 
increases also eliminate 38 education programs that provide 
vital services to Indian children such as dropout prevention, 
gifted and talented education, school counseling, and after 
school programs, to name a few. If the fiscal year 2005 budget 
is enacted, the proposed increase of 4.8 percent would be the 
smallest increase since 1996 and would complete disregard 
Native students' critical needs.
    The Department of the Interior budget request is proposed 
to be cut 0.5 percent. Within that budget, there is a $52-
million reduction in funding for the BIA, reducing that 
agency's budget by 2 percent, to $2.3 billion.
    We talked about Indian school construction funding. During 
President Bush's first term, he promised to remove the backlog 
of new Indian school construction. Within the 2005 budget, 
Indian school construction funding is proposed to be cut $65.9 
million from fiscal year 2004's appropriation of $229.1 
million. The rationale is the Office of Management and Budget 
wants more schools completed and the rate of school 
construction has fallen behind. This can be due to a number of 
factors, including bureaucracy delays, contracting delays or 
weather conditions.
    I wanted to also point out that it may be coincidental, but 
this cut is the same amount of funding that has been 
appropriated or set aside for Indian trust fund accounting. It 
has been increased by $65 million, the same amount as the 
construction funds have been cut.
    We urge you to ask the Bureau of Indian Affairs to get its 
house in order, to step up this process and to urge the 
restoration of school construction funding that is necessary to 
meet the needs of Indian students.
    Indian education facilities improvement and repair funding: 
The continued deterioration of facilities on Indian land is not 
only a Federal responsibility. It has become a liability of the 
Federal Government. The 2005 budget request cuts facilities 
improvement and repair by $6.1 million, from $137.5 million. 
There is a known backlog of hundreds of millions of dollars in 
critical repair needs. It could be stated in the billions.
    We urge not only restoration of funds to the fiscal year 
2004 level, but an increase that will realistically address the 
needs of Indian children who must try to learn in buildings 
that are not conducive to learning. It is unfair to hold Indian 
children hostage in their right to a successful education.
    The Impact Aid Program directly provides resources to State 
public schools, school districts with trust status lands within 
the boundaries of a school district for operational support. 
That program funding is slated to remain on the same level as 
fiscal year 2004. Of course, as we heard earlier, we are very 
disappointed that tribal colleges and universities funding has 
been reduced by $5.8 million, and we request that level be 
restored as well as the United Tribes Technical College.
    In addition to that, NIEA requests additional funding 
needs, and of course we are underfunded, as we know. We are 
asking that for the first time in history that tribal 
departments of education be funded. True success can be 
attained only when tribes can assume control of their 
children's educational future. As mandated in many treaties and 
as authorized in several Federal statutes, the education of 
Indian children is an important role of Indian tribes.
    The authorization for TED funding was retained in Title VII 
of the No Child Left Behind Act. Despite this authorization and 
several other prior statutes, Federal funds have never been 
appropriated for tribal departments of education. Achieving 
tribal control of education through TEDs will increase tribal 
accountability and responsibility for their students and will 
ensure tribe's exercise their commitment to improve the 
education of their youngest members.
    For fiscal year 2005, we are requesting a total of $3 
million, or $250,000 per tribe for 12 tribes, to initiate the 
process of their education departments and to finally begin the 
process of empowering them to direct their own educational 
priorities that reflects their linguistic, cultural and social 
heritage and traditions.
    On the Native American Languages Act, Senator Inouye has 
been a champion of this. The preservation of indigenous 
languages is of paramount importance to Native communities. It 
is estimated that only 20 indigenous languages will remain 
viable by the year 2050. We must begin the legislative process 
to ensure there is some substance in the Native American 
Languages Act for projects that address the crisis of our 
language losses.
    NIEA urges this committee's support for additional funding 
that will address language needs of communities with less than 
a handful of elderly fluent speakers. NIEA, in partnership with 
other organizations, is willing to assist in the identification 
of needs and funding required for this process to begin.
    One final request, John O'Malley funding. In 1995, a freeze 
was imposed on Johnson O'Malley funding through the Department 
of the Interior, limiting funds to a tribe based upon its 
population count in 1995. This freeze prohibits additional 
tribes from receiving JOM funding and does not recognize 
increased costs due to inflation and accounting for population 
growth. NIEA urges that the Johnson O'Malley funding freeze be 
lifted and other formula-driven or headcount-based grants be 
analyzed to ensure tribes are receiving funding for their 
student population at a level that will provide access to high 
quality education for Indian students.
    Finally, NIEA respectfully urges this committee to truly 
make Indian education a priority and to work with the 
congressional appropriators and the Administration to ensure 
that Indian education programs are fully funded. We encourage 
an open dialogue and are willing to work with you to build a 
more reasonable and less punitive approach that takes into 
account our experience in Indian education.
    NIEA was instrumental in helping with the passage of the 
Indian Education Act of 1972 and assisted the Congress at that 
time in conceiving ideas and recognizing the need for 
improvement in the effectiveness and quality of education 
programs for Native students. Please join NIEA and other 
organizations established to address the needs of Native 
students, to put our children at the forefront of all 
priorities. We must work with the Bureau of Indian Affairs, the 
Department of Education and tribal leaders to ensure our 
children are not left behind.
    Without acknowledgement who are our future, our triumph and 
our link to the past, there is no need for tribal sovereignty's 
continuation.
    Thank you.
    [Prepared statement of Ms. LaMarr appears in appendix.]
    The Chairman. Thank you, Cindy.
    We will now go to Mr. Sossamon.

  STATEMENT OF RUSSELL SOSSAMON, CHAIRMAN, NATIONAL AMERICAN 
                     INDIAN HOUSING COUNCIL

    Mr. Sossamon. Thank you, Chairman Campbell, Vice Chairman 
Inouye and other distinguished members of the committee. On 
behalf of the members of the National American Indian Housing 
Council and its board of directors, I would like to thank you 
for this opportunity to address you today on the President's 
proposed budget for fiscal year 2005.
    As chairman of NAIHC and executive director of the Choctaw 
Nation Housing Authority of Oklahoma, I was disappointed with 
the President's proposed budget this year. This is the 4th year 
in a row that it does not include any increases for Indian 
housing. Inflation has risen steadily, as well as construction 
costs, compounding it with a growing Indian population.
    The threat of funding cuts continues to intensify for all 
domestic programs. We are happy to avoid any cuts, but we are 
not so grateful as to just accept what we are granted in the 
face of brutal realities in Indian country.
    Throughout this hearing and your continued examination of 
the President's budget, we hope you will keep our concerns in 
mind. NAIHC believes that $700 million is the minimum that 
should be appropriated for Native American housing for fiscal 
year 2005. The president has proposed $647 million. This is 
roughly the same amount that has been appropriated for the last 
4 years.
    Given the rate of inflation and increased housing costs, 
housing funding has actually decreased under this 
Administration. Based strictly on inflation, the Indian housing 
block grants should receive at least $713 million for fiscal 
year 2005, an amount that would be a true flatline of funding, 
and not actually an increase.
    We understand that this committee in particular has been 
frustrated with the lack of hard data to support yearly budget 
requests for Indian housing. We share your frustration. You may 
remember that last year, HUD's Office of Native American 
Programs underwent a performance assessment through the Office 
of Management and Budget. ONAP received a poor score, due 
mainly to its lack of data, therefore its inability to measure 
performance.
    We had hoped this assessment would lead to a swift 
implementation of a data collection system that would allow for 
tribes and HUD to demonstrate the progress that has been made 
and the unmet need. HUD collects data yearly in an Indian 
housing plan and annual performance reports on such items as 
the number of overcrowded units, the number of housing units 
constructed, and the number of housing units rehabilitated. 
Unfortunately, HUD does not have a data base that can pull this 
data together to give a national picture.
    Since we at NAIHC know that this data could be key to 
increased appropriations, we have decided to embark on our own 
comprehensive data collection. A survey will be sent to all 
tribes across the country in March that will seek to collect 
the kind of information required to show both what NAHASDA has 
accomplished, but also identify the current housing needs. We 
hope to report back to this committee by the end of May with 
the facts and figures on the use of Federal funding from 
various agencies, as well as a report on services and banking 
opportunities that are currently not available to tribes.
    However, without this data on hand for the beginning of 
this budget process, I would like to illustrate for you how the 
proposed block grant amount would be used and why an increase 
is needed. This illustration was provided by one of ONAP's 
housing administrators during a meeting earlier this year. The 
funding factors in these figures are approximate: $647 million 
for the fiscal year 2005 block grant. Subtract from that $7.5 
million for set asides, less 20 percent for administration 
expenses allowed under NAHASDA, less 30 percent for current 
assisted stock, which is to maintain the homes developed under 
the 1937 Act, leaves us with only $320 million available for 
new housing construction.
    With an average cost of $125,000 per unit, tribes should be 
able to build approximately 2,550 new units of housing 
nationwide. According to the census, more than 40,000 Indian 
houses are overcrowded. That is more than 1.1 persons per room. 
So at 2,550 units a year, it would take nearly 16 years to 
address only one of the seven need factors used under NAHASDA 
to determine need, overcrowding if funding and costs remain 
constant. This may be an oversimplification of the situation, 
but it shows that progress, while steady, is slow to meet the 
need.
    I would like to refer you to my written testimony on the 
discussion of other vital Indian housing programs, including 
the community development block grant, rural housing and 
economic development program, and BIA housing.
    Because of the short time today, I must finish with a 
discussion on technical assistance. The President has proposed 
technical assistance funding for the implementation of NAHASDA 
in fiscal year 2005 by eliminating $2.2 million in set asides 
for NAIHC, which supplements HUD's technical assistance funding 
of $5 million. In spite of the same budget request last year, 
Congress chose to fund NAIHC's efforts in the final fiscal year 
2004 appropriation in the amount of $2.2 million. We would like 
to see the same happen in 2005.
    NAIHC also receives set asides from the community 
development block grant for a total of $4.7 million in fiscal 
year 2004 for both grants. The Administration has proposed 
$2.48 million for NAIHC in 2005.
    HUD's Native American block grant is not an easy program to 
administer if you have no experience with it. For tribes with 
extremely limited funds and/or limited experience, it can be 
daunting and trying to effectively use the NAHASDA block grant 
funds. In particular, small tribes across the country are in 
desperate need of alongside support and training.
    HUD is simply unable to address this need when their job is 
to administer and provide oversight for the program. Using the 
$2.2 million Native American housing block grant set aside in 
2003, NAIHC provided 430 scholarships to attend NAHASDA-related 
training opportunities offered by NAIHC and HUD. We facilitated 
five mentoring trips utilizing the expertise of one tribe to 
demonstrate and mentor for another. We offered 29 free 
classroom sessions in 10 different subject matters relevant to 
Indian housing; 780 students received training on 23 subjects 
during two of NAIHC's annual meetings.
    We have coordinated four policy development workshops for 
136 individuals to develop NAHASDA complaint policies. We 
provided free board of commissioner and tribal council training 
to 30 tribes. We have developed five technical assistance 
documents, including a set of model construction documents, an 
executive director's orientation manual, and three sample 
policies that deal with collections, compliance, procurement 
and property acquisition.
    All of these have been or will soon be approved by HUD and 
will be reproduced and distributed free to tribes and TDHEs. So 
as you can see, NAIHC's Native American housing block grant set 
aside is being put to good use and is being applied right where 
the tribes need it to implement NAHASDA.
    Using the CDBG technical assistance funding, NAIHC provided 
on-site technical assistance to over 162 tribes in 2003 alone, 
supplemented by more than 365 e-mails and phone calls. 
Approximately 530 tribal housing staff attended training 
courses as part of NAIHC's leadership institute, separate from 
all the other courses that have been mentioned above.
    Despite all this good work, NAIHC's funding has been cut in 
half by the President's budget. Tribal capacity will improve 
only when there is training and other assistance provided. 
NAIHC has shown precisely how it uses its Federal funds for the 
betterment of these housing programs. Has HUD been able to show 
the same amount of support for the tribes? We have seen no 
similar breakdown in services by HUD, and believe that the 
tribes will suffer if only HUD is there to provide this 
assistance.
    We are therefore requesting that full funding of $4.8 
million in fiscal year 2005 for NAIHC technical assistance, 
which would ideally all come from the community development 
block grant program, so as not to compete with tribes for 
scarce housing dollars out of the Native American Indian 
housing block grant.
    Mr. Chairman, during this hearing last year, you had a 
question about fetal alcohol syndrome and what can be done to 
prevent it in tribal communities. One way to prevent alcoholism 
is to provide hope for the future. What hope can there be when 
you are living in a home with 25 other people, having no 
running water and no electricity? When people live in those 
kind of conditions, we see commonly in tribal areas there is no 
hope.
    Strictly on the basis of human need, shelter is number 
three in the hierarchy. Let's go to the core of the problem of 
this epidemic in the tribal communities, including alcoholism, 
and address the basic safety and comfort for shelter. Funding 
appropriated for health care and education, while important, 
goes much further when the base need of shelter is met. Absent 
adequate housing, you are discounting your investment in these 
other two areas.
    I would again like to thank all of the members of this 
committee, in particular Chairman Campbell and Vice Chairman 
Inouye, for their continued support for the tribes and Indian 
housing. NAIHC looks forward to working with each of you for 
the rest of this session of Congress and I will be happy to 
answer any questions.
    Thank you.
    [Prepared statement of Mr. Sossamon appears in appendix.]
    The Chairman. And last, Gary Edwards.

    STATEMENT OF GARY EDWARDS, CHIEF EXECUTIVE OFFICER, THE 
           NATIONAL NATIVE AMERICAN LAW ENFORCEMENT 
                          ASSOCIATION

    Mr. Edwards. Chairman Campbell, Vice Chairman Inouye, 
distinguished committee members, tribal elders and leaders, my 
name is Gary Edwards. I am the chief executive officer of the 
National Native American Law Enforcement Association and the 
vice chairman of the Native American National Advisory 
Committee for Boys and Girls Clubs of America.
    The National Native American Law Enforcement Association 
was founded in 1993. Its membership is made up of Native 
American and non-Native American women and men in law 
enforcement and individuals that are not in law enforcement. 
The association cultivates and fosters cooperation and 
partnership between Native American law enforcement officers, 
agents, their agencies, private industry, tribal industries and 
the public. NNALEA's goal is to give back to the communities 
from which we come.
    I have prepared my testimony and written statement today 
and I ask that it be accepted by this committee.
    The Chairman. It will be included in the record.
    Mr. Edwards. Thank you.
    With regard to the fiscal year 2005 budget, NNALEA believes 
that it is necessary for funding for Indian programs critical 
to tribal sovereignty, stability, infrastructure and quality of 
life to be at least maintained at the minimum funding levels of 
today, with additional funding levels necessary for programs 
essential to maintain national security strategies and 
objectives, such as the national homeland security defense 
strategy and the Federal enterprise architecture.
    NNALEA also believes that two specific categories of Indian 
programs warrant special discussion today. The categories are 
tribal law enforcement, public safety and homeland security, 
and tribal youth. In my remaining time, I will briefly 
highlight some of the risks and potential solutions for each 
category.
    First, tribal law enforcement, tribal safety and homeland 
security. The risk, drugs. Approximately 80 to 90 percent of 
crime in Indian country derives from some form of illegal 
substance or alcohol abuse. Violent crime: Native Americans are 
2.5 times more likely to be a victim of a violent crime than 
non-Native Americans. The violent crime rate for Indian country 
in 2002 was 49.8 percent higher than the national average. Gang 
activity is rampant on some tribal reservations.
    Public and officer safety. It is not uncommon for an 
officer to wait more than 3 hours for backup. Officer backup is 
not only contingent on the availability of another officer, but 
also on the ability and capability to transmit the call for 
assistance via radio or telephone.
    Tribal homeland security vulnerabilities. Southwest and 
northern tribal border areas have been historically known for 
smuggling of narcotics, illegal immigrants and trafficking in 
various other items of contraband. The significant increase in 
border crossings today not only has caused a drain on tribal 
law enforcement focused toward protecting our homeland, but 
also has caused a drain on our Indian Health Service hospitals. 
The significant border crossings with regard to the Tohono 
O'odham Reservation has cost this year alone in excess of 
$200,000 of unfunded care. Tribal border security is clearly a 
priority on everyone's short list.
    Now I will give a potential solution snapshot for the areas 
of concern and risk. Drugs and violent crime. We must increase 
the number of drug enforcement officers in Indian country. 
Also, we must increase the number of BIA and tribal law 
enforcement officers to perform public safety and regular law 
enforcement functions. Also, we must conduct training with 
regard to drugs and violent crimes in Indian country such as 
NNALEA has conducted at their last three national conferences 
and plan to do so again this year at our 2004 national 
conference.
    Public safety and officer safety. A program like the COPS 
office, the Community Oriented Policing Program, provides not 
only infrastructure for law enforcement in Indian country, but 
it also provides manpower. It is essential that a program like 
that exists and continues to move forward.
    Tribal law enforcement and public safety officials need to 
be at parity with their non-tribal counterparts in areas of 
pay, benefits, equipment, training and technical assistance. In 
turn, Indian country law enforcement needs to improve the 
quality of its law enforcement level of performance to parity 
with that of non-Indian law enforcement organizations.
    NNALEA will help Indian country achieve this goal of parity 
by developing better training on a national area, and also 
through our development of the academic center for excellence 
in education and training and technical assistance for Indian 
country.
    The ACE program has members from NNALEA, Fort Lewis College 
of Durango, CO, East Central University of Oklahoma, the 
Federal Law Enforcement Training Center Distance Learning 
Program, the Boys and Girls Clubs of America, and the Federal 
Bureau of Investigation Visual Training Academy. This 
particular program will today increase our ability to train and 
maintain officers with current techniques utilized today to 
fight crime and to protect our homeland.
    Currently, ACE partners are seeking to develop an 
interoperable satellite communications system for tribal and 
rural law enforcement officers, public safety, and emergency 
responders to utilize. Testing has already been successfully 
done at the Navajo Reservation.
    Tribal corrections programs in correctional facilities are 
in great need of funding support for quality, culturally 
sensitive corrections programs, and funding sufficient to build 
new facilities, modernize current structures, and maintain 
adequate professional staff.
    Tribal homeland security vulnerabilities. Today, the 
National Native American Law Enforcement Association has 
developed and presented a seven-phase approach to tribal lands 
homeland security. The approach will encompass Native Americans 
in the continental United States, Alaska and Hawaii. The 
National Congress of American Indians is partnering with NNALEA 
and the Department of Homeland Security to conduct a tribal 
border pilot project. The project will be an assessment-type 
project and this particular type project needs to be moved to 
other parts of Indian country as soon as possible.
    Another very positive movement is that the Department of 
Homeland Security has reserved a position on the table with 
other national, State and local representatives for the voice 
of the development and writing of a national incident 
management system, which is the NIMS, and the rewriting of the 
national response plan. This gives Indian country a voice at 
the table and can have great impact upon our ability to 
cooperate with Federal, State local police and emergency 
response organizations in the future.
    The second area I would like to briefly discuss is tribal 
youth. First, I will go over the risks. The risks that tribal 
youth are looking at today is that American Indian and Alaskan 
Native mortality from alcoholism is over 10 times the rate of 
all races in the United States. Also, between 1990 and 2001, 
there has been 106 percent increase in diabetes for the 
American Indian and Alaska Native age group from 15 to 19.
    Violent crime. Native American teenagers are 49 percent 
more likely to be victims of violent crime than non-Native 
American teenagers. There are approximately 375 Native 
American-based gangs with approximately 6,000 members and 
associates in Indian country. Much of their illegal activity 
goes on on reservations unchecked.
    In 1999, approximately 2,000 American Indian and Alaska 
Native youth were being held in juvenile residential facilities 
across the country. That number increased by eight percent by 
the year 2001. Some potential solution snapshots for that 
particular problem are the Boys and Girls Clubs of America. The 
Boys and Girls Clubs of America had one club in Pine Ridge in 
1992; today we have 171 clubs across Indian country. We serve 
approximately 70,000 Native American youth in 22 States, 
representing 77 different American Indian, Alaska Native, and 
Hawaiian communities.
    Recognizing the economic impact on Indian reservations, the 
Boys and Girls Clubs of America has established the Native 
American Sustainability Fund to enable the clubs to be 
sustained on Indian country. NNALEA recommends that these funds 
be designated that would help the BGCA sustain critical Indian 
clubs.
    Another program that was very effective in a pilot program 
last year was from the Bureau of Alcohol, Tobacco and Firearms. 
It as the Gang Resistance Education and Training Program that 
was piloted on seven reservations across the United States. It 
was a true success for Native youth in tribal communities. 
Tribal youth established new relationships with law enforcement 
officers, community leaders, parents, club staff, and they 
acquired new skills in resisting gangs.
    The Indian Health Service partnered recently with the 
National Congress of American Indians and Boys and Girls Clubs 
of America to develop a more active role in healthy lifestyles 
and keeping American Indian and Alaska Native youth in school.
    Another program of note from last year is the Helen Keller 
ChildSight program which conducted a vision screening for a 
group of Native American children ages 10-15. As a result of 
that, they found that there was an astonishing refractive error 
rate of 37.7 percent in Native American youth. The refractory 
rate for the average across the country is 11 percent to 20 
percent.
    In closing, funding is very important to the success of the 
programs I have mentioned. It is NNALEA's belief that it is for 
necessary funding for Indian programs critical to tribal 
sovereignty, stability, infrastructure and quality of life to 
be at least maintained at the current level, while additional 
funding may be necessary for Indian programs essential to 
national strategies and objectives.
    Thank you, and I am happy to answer any questions you may 
have.
    [Prepared statement of Mr. Edwards appears in appendix.]
    The Chairman. Thank you.
    Let me ask a few and I will submit some for the record, 
too. Since you are the last one that spoke, Gary, a few years 
ago I was the speaker at Reno at your national convention. I 
have to tell you, I was really impressed with the 
professionalism and the type of training that the law 
enforcement officers go through and their ability to interact 
with other agencies, too.
    You mentioned several things I wanted to get your reaction 
to. You know that Indian law enforcement has the ability like 
any law enforcement to tap into Federal programs like what is 
called the CETAC program, which is transfer of Federal 
technology and apparatus like drug-sniffing apparatus, things 
of that nature. Tribes have that authority, you knew that, and 
also by the way bullet-proof vests, you mentioned that in your 
testimony. They can also avail themselves to those, too.
    You also mentioned that you are working with several 
colleges now. I remember we talked about Fort Lewis once 
before. How is that program going? Are they actually offering 
some classes now to help what you do?
    Mr. Edwards. They were very helpful in our 2003 conference 
in November in Fort Worth, Texas. We actually put on a 
presentation regarding the Academic Center for Excellence where 
we had eight different pilot sites across the country that were 
utilizing distance learning. We had all of our partners there 
from Fort Lewis, East Central University, the Federal Law 
Enforcement Training Center, NNALEA and Boys and Girls Clubs of 
America. We interchanged during a learning session during that 
period of time.
    Then we had a special class after that for those in 
attendance and via the satellite communication regarding legal 
updates put on by the Office of Tribal Justice. So it is on the 
way. It is going.
    Also, as a result of that partnership, we were able to give 
53 people in attendance at our national conference two hours of 
full college credit based upon the curriculum and their 
qualifications through this group of the Academic Center for 
Excellence.
    The Chairman. Good.
    We have also had a number of tribes coming in that have 
land bases that border either Canada or Mexico, that have 
talked to us about trying to define a little better 
relationship on the homeland defense bill that we passed, and 
making sure that they retained tribal sovereignty, too. It is 
something that we are aware of and we are trying to work on. I 
just wanted to pass that on to you.
    Cindy, let me ask you a couple of questions next. First of 
all, did you say you were Pit River?
    Ms. LaMarr. Yes; I am one-half Pit River, one-half Paiute. 
I reside in Sacramento.
    The Chairman. You work from Sacramento.
    Ms. LaMarr. Yes.
    The Chairman. Did you know the Preston family, the Lucky 
Preston family of Pit River?
    Ms. LaMarr. Sure.
    The Chairman. Thirty years ago, I taught him when he was a 
youngster in Indian art classes. After he was married, they 
named their son Ben Nighthorse Preston. Wasn't that nice of 
him? [Laughter.]
    He is about 14 now and we have sort of a pen pal. He writes 
me and tells me how school is going and the classes he is 
taking and his activities. I just really was honored that they 
would do that. It is kind of the Indian way, or something, but 
it was very nice of them to do that.
    Ms. LaMarr. I will be sure to name my next grandchild after 
you. [Laughter.]
    The Chairman. That would be nice.
    Ms. LaMarr. Hopefully it will be a boy.
    The Chairman. However, I do not know of a Dan Inouye 
Thunderhawk or something of that nature. Perhaps we ought to 
reserve that honor for my vice chairman here. [Laughter.]
    Let me talk to you a little bit about the No Child Left 
Behind Act. As I understand your testimony, you believe that 
the NIEA does believe in accountability and documenting 
results, but the No Child Left Behind Act is not the proper 
vehicle to be able to do it. Could you tell the committee how 
the NIEA would introduce accountability and measures of 
effectiveness into the education of Indian children, which you 
believe in, that would be done in lieu of the No Child Left 
Behind Act, if that is the wrong way to go?
    Ms. LaMarr. I don't know that we can supersede the No Child 
Left Behind Act, but our tribes and public schools that serve 
American Indian and native students are trying to meet the 
mandates of the law. But because of the many problems such as 
isolation, low economic factors, and also that teachers that 
teach on reservations are very hard to come by, that really 
want to live and teach on a reservation, causes a problem.
    I think overall, there are problems with No Child Left 
Behind for all public schools, but particularly with Indian 
communities it poses a huge problem. I guess I am not asking 
for an alternative. I am asking for some special exceptions.
    The Chairman. We have heard from literally everyone on the 
panel that our funding is inadequate in the President's budget, 
and we understand that. I am sure you believe that in educating 
for Indian kids, as we believe too, should be fully funded, but 
we do not have a dollar figure. I did not hear you suggest a 
dollar figure. What do you think that the BIA needs in order to 
do the job right?
    Ms. LaMarr. That is a good question.
    The Chairman. Do you have a good answer?
    Ms. LaMarr. Billions. [Laughter.]
    What I have heard is that the backlog of repair needs for 
Indian schools is about $2 billion.
    The Chairman. How much did you say?
    Ms. LaMarr. About $2 billion.
    The Chairman. About $2 billion.
    Ms. LaMarr. When you factor into many areas such as 
inflation and the cost and deterioration, I think that we can't 
even begin.
    The Chairman. I think that is one of the problems we face, 
that we are not doing a real good job with education money. 
There is no doubt in my mind.
    Ms. LaMarr. No.
    The Chairman. But the needs seem to be going up faster even 
if we put more money in. The growth of youngsters on the 
reservations has just, we literally have a population 
explosion, as you know. We are well aware that we are not doing 
a very good job in keeping up with the education of our 
youngsters.
    Ms. LaMarr. The fact that our Indian communities are 
increasing in numbers is a good thing. But the fact that 
education numbers and dollars are decreasing is not good. It is 
a terrible tragedy.
    The Chairman. I understand that.
    Mr. Sossamon, you stated that at least $1 billion in annual 
funding is needed for Indian housing. Are any other factors 
being considered in reaching that amount, other than needing 
more money from the Federal Government?
    Mr. Sossamon. Yes, sir; what we believe is that there is 
ongoing now a vigorous effort to access not only other Federal 
programs, but to utilize travel funding, to utilize the tribes' 
bonding capacity, and expand the tribes' bonding capacity, to 
work through tax exempt bonding, through the State agencies; 
also to leverage private dollars. We are working with a number 
of entities, both private financial institutions and Fannie Mae 
and Freddie Mac, Wells Fargo, to name a few, to bring private 
dollars.
    The Chairman. That is all well and good if the tribe is 
financially secure and has natural resources or casino money or 
something. But those tribes that are really poor, some of those 
opportunities just do not present themselves for poor tribes.
    Mr. Sossamon. Absolutely. The reason that we believe that 
Federal investment needs to increase to the $1 billion level is 
to address inadequate infrastructure, to allow tribes to 
develop on their own.
    The Chairman. Yes.
    Mr. Kashevaroff, coming from a long way off in Alaska, can 
you tell the committee to what degree that telemedicine usage 
is done in Alaska, or whether this is an area that we ought to 
focus on with the limited funds that are in the President's 
budget?
    Mr. Kashevaroff. Thank you, Mr. Chairman. Alaska has 
implemented a telemedicine project over the last 5 or 6 years. 
We have telemedicine carts in about 170 Alaska villages. the 
utilization has been increasing every day. We basically worked 
out the framework of where to transfer the images to and how to 
read them and everything like that. We have quite a few good 
success stories now of villages that where the weather is bad 
and no one can get out, that doctors have been able to use the 
telemedicine system to help the patient out and even save 
lives.
    It has been pioneered in Alaska, and really needs to be 
shared throughout the Nation. We basically have a system that 
is ready to be shared throughout IHS and we have already had 
some requests for maybe even overseas to be able to come and 
use the same type of system. So we are ready to share that, and 
it is pretty much mature, and it just really comes down to the 
amount of funding.
    The Chairman. I am not aware of how much other tribes use 
telemedicine, but I have seen a little bit of it in Montana. It 
seems to me it is a real wave of the future. Would you say that 
Alaska is on the leading edge of that, using telemedicine?
    Mr. Kashevaroff. Yes; I believe we are on the leading edge 
of it. Yes.
    The Chairman. Tex, funding for historical accounting, your 
testimony takes issue with $110 million for historical 
accounting, without what you call ``mutually acceptable 
parameters''. I jotted that down on how to undertake the task. 
We wanted to find out, what is ``mutually acceptable 
parameters''? Is that the agreement that we are trying to get?
    Mr. Hall. Right, right. We wanted to work with the 
committee in terms of how we go about historical accounting, 
especially with the 1-year moratorium with the rider that was 
passed in the last fiscal year through the appropriations.
    And then to see that in this budget without coming to any 
kind of an agreement about the parameters of how to do that is 
the issue that we were raising, Mr. Chairman. So again, I think 
that is very important as we move forward on this very, very 
important initiative and very costly initiative, that we work 
together collectively to define that. So I think we can 
actually save dollars, but it is just puzzling to see that 
again without any kind of an agreement on how to go about it.
    The Chairman. We are trying to make that a priority to get 
that settle this year, so that the appropriators do not try and 
take it away from us like they did last year. We have talked 
about this before, that we really need to get our shoulders 
collectively to the same grindstone and get some solution to 
it. I hope that NCAI will really help us this year on doing 
that.
    Mr. Hall. We are 100 percent in support of the committee 
wanting to move forward. This is the appropriate committee, and 
not through the appropriations to try to legislate anything.
    The Chairman. Something else came up to my mind when 
Senator Conrad was speaking, and Senator Dorgan. It seems like 
every year something comes up about the United Tribal Technical 
College, why the Administration does not support it or fund it 
properly. What is different about that school than other 
schools? Is there something that we are not aware of that we 
need to change legislatively?
    Mr. Hall. My understanding is that their budget is in kind 
of like what they call a special pooled overhead, so it is 
discretionary, versus a permanent line item in their budget.
    The Chairman. Why was that school put into a discretionary 
category?
    Mr. Hall. I am not certain what the history on that was, 
but United Tribes and Crown Point from New Mexico are both of 
those special pooled overhead. We have been asking for that 
permanent line item for quite some time.
    The Chairman. Is Haskell also in that category?
    Mr. Hall. No; Haskell has a permanent line item. So 
Secretary Norton came out in 2002 and Neil McCaleb, assistant 
secretary at that time, both agreed that United Tribes has 
nearly 600 students; they have a high graduation rate; it is a 
very important part of the whole tribal college initiative and 
does a great job. We were led to believe that it was going to 
find a permanent line item in the budget, but evidently it has 
not.
    Senator Conrad. Mr. Chairman.
    The Chairman. Yes; I did not see you come back in. I am 
glad you did. I was just asking about this.
    Senator Conrad. Yes; which I appreciate very much. Maybe I 
could explain what we have been told is the problem, because it 
is a catch-22 if ever there was one. This institution is owned 
by five tribes. As a result, they do not qualify for Tribal 
College Act funding. The Tribal College Act requires that you 
only have one institution per tribe. This is owned by multiple 
tribes.
    The Chairman. So we can pro-rate it or do something.
    Senator Conrad. What they say is, look, we want it funded 
by the Tribal College Act, but the Tribal College Act 
specifically precludes funding of this institution because it 
is owned by multiple tribes.
    The Chairman. The Tribal College Act is up for 
reauthorization this year. This would be an opportunity for you 
to work with us, and Senator Inouye, and I know Senator Dorgan, 
between our collective staffs, maybe we can change it in the 
act so we do not have to keep dealing with it every year and it 
would be a line item like the rest of them.
    Senator Conrad. We would certainly appreciate that, Mr. 
Chairman. We would look forward to working with you to solve 
this problem.
    The Chairman. Good. Okay.
    Senator Inouye, I yield to you if you have questions.
    Senator Inouye. Thank you very much.

 STATEMENT OF HON. DANIEL K. INOUYE, U.S. SENATOR FROM HAWAII, 
           VICE CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    Senator Inouye. Mr. Chairman, I have been a member of this 
committee now for 27 years. Of those years, I have served and I 
have had the honor of serving as either chairman or vice 
chairman for 17 years. Throughout those years, I have sat on 
this panel and listened to hundreds of stories of pain and 
shame, of discrimination, of broken promises. I have heard 
stories of the high rate of diabetes, the worst in the United 
States; in fact, worse than some of the third world countries; 
of the number of amputees and the blind.
    I have heard horror stories of glaucoma, where the rest of 
the population has never heard of it, but in Indian country it 
is commonplace. I have heard of the suicide rates among Alaskan 
teenagers, seven times that of the national norm. I have heard 
of drug abuse, substance abuse in Indian country, about 50 
percent higher than the rest of the Nation, and yet we have 
only 11 DEA agents.
    I have heard all of these stories. I have heard stories of 
cancer, of heart disease. I have heard stories of spending 
$4,500 per student in our community colleges. At the same time 
for African American students at Howard University, under the 
same type of program, over $20,000.
    It is a good story to tell, but these are some of the best 
kept secrets that I know of. These walls have heard all these 
stories. We have heard these stories. The record would show 
these stories, but who reads those records? How many of you 
read the Congressional Record? We give eloquent speeches on the 
floor, but I doubt if five of you read the Congressional 
Record. So you can imagine how many people read the 
Congressional Record in the United States.
    At the same time, we know that more Native Americans have 
volunteered and put on the uniform of this Nation since World 
War I than any other ethnic group. Even today, more Indians 
die, more casualties among Indians. Yet how many Americans know 
about this? The land that we reside on belonged to the Indians, 
but we take that for granted.
    So Tex Hall, I have a little suggestion to make. How about 
forming a task force on public relations and information, so we 
can get all the motion picture people, the public radio people, 
the PBS people, producers and such, and maybe we will hit the 
goal, get them excited, let the others know about your 
problems. We know about it. We try to convince our colleagues 
and frankly they could care less. I hate to say this, but you 
look at this panel here. There are three of us, and we are 
handling your budget, the three of us.
    So this story must be told so that decisions are made 
because it is politically correct. It is sexy. Right now, the 
Commerce Committee is having a hearing on indecency, violence, 
and sex on television. I can assure you that room is filled 
with cameras and filled with members. I am a member, but I am 
sitting here.
    So let's get down to work. We have a story to tell, a good 
story. It is about time the rest of America finds out.
    Thank you.
    The Chairman. That is a terrific idea, Tex. You know, after 
those very derogatory stories came out about Indian gaming in 
Time, you read them, the National Indian Gaming Association did 
just that. They started putting together a public relations 
effort with packets that went out to members of Congress and to 
educators, to the news media and so on. I think they have done 
a really good job.
    As Senator Inouye said, it is a story that we try to tell, 
but we cannot do it alone. We always fight for you and try to 
fight for money for Indian programs, but part of the 
responsibility has to be on Indian people to get that story 
out, too. Not just when a good movie comes out like Dances With 
Wolves or something, we need an ongoing effort all the time.
    You have to remember, around here every 2 years, a whole 
bunch of people are not here again. The whole House is up for 
reelection and one-third of the Senate every 2 years. So you 
have a constant change of faces here, and with the exception of 
people like Senator Inouye who has literally dedicated his life 
to helping Indian people, a lot of them that are here this time 
are not going to be here next time. It is as simple as that. 
They go on to other things or they lose or something.
    So you have to have a constant ongoing drum-beat every 
single time, every 2 years, that same kind of an educational 
process has to take place back here. Because Senator Inouye is 
absolutely right. We put things in the Congressional Record, 
and even our colleagues don't read most of them. So I certainly 
recommend that.
    Mr. Hall. Mr. Chairman, just briefly. Senator Inouye and 
Chairman Campbell, I definitely agree with it and I would even 
further add to it that it needs to be a permanent task force, 
because as you mentioned, there is turnover all the time that 
occurs. We want to take that challenge up. We have been talking 
about this for a long time.
    Senator Inouye. And I want to serve on it.
    Mr. Hall. We would most appreciate it. And then the Grammys 
that came out just the other day, was it Sunday night? I was 
ashamed to see that they said there was no, speaking of the 
Commerce Committee, there was no hanky-panky at the Grammys, 
but the Outcast that won the record of the year I think 
insulted Indian tribes. Somebody had a fake war bonnet. 
Speaking of selling sex on TV, they had scantily clad female 
dancers with green turkey feathers. It was a mockery of our 
culture. But the headlines were that Grammys pulls off without 
a scandal, real tame, and nothing was wrong. That is not right.
    So again, we need to have a public relations effort, and we 
are going to write a letter to the Grammys and to the FCC 
Chairman, Mr. Powell, and talk about that very issue. It is not 
acceptable to criticize and mock Indian culture.
    The Chairman. No; it is a big question and it deals with a 
lot of things like mascot names and all the other stuff that we 
have dealt with for years. But a lot of the momentum has to be 
developed within Indian country to say enough is enough.
    Mr. Hall. Exactly.
    The Chairman. Senator Conrad, did you have any questions?
    Senator Conrad. Please, I do, Mr. Chairman.
    Let me just say that we know the needs in Indian country in 
housing and health care and education and law enforcement are 
enormous. They are far greater than is being met by this 
budget. That is a fact. The population with the greatest needs 
in the United States are Native American people.
    Yet with this budget, once again they are getting short 
shrift, short-changed. The needs are not being met. In fact, 
the needs are growing more dramatically in the Indian 
population than in other populations, but the budget is going 
the opposite way.
    So what will be the result? Housing will deteriorate. 
Schools will decline in quality. Health care among Indian 
people will be worse. That is the truth of the matter. It is 
really very dramatic. I go to the Indian Health Service first. 
The budget there is almost $3 billion, $3 billion. The increase 
asked for is 1.5 percent, $45 million. Medicare, much larger 
budget, is being increased by almost 9 percent, 8.8 percent.
    You can see if you would provide for an increase in Indian 
Health Care in the same way as is being provided for in 
Medicare, reflecting increased utilization and reflecting 
increased health care costs, it would not be a 1.5 percent 
increase. If it was Medicare, it would be 8.8 percent. That is 
seven percent more; seven percent of $3 billion is another $200 
million. Still you would be nowhere in the ballpark of the 
need. The needs-assessed budget that has been put together says 
the need is not for $3 billion or $3.2 billion, if we got the 
same increase that Medicare is getting. The need is $19 
billion.
    For anybody that has gone to Indian country and seen the 
health care needs, they are crushing, whether it is diabetes, 
as was referred to by our distinguished ranking member, or 
whether it is suicide, which he also referenced with respect to 
Alaska. I can tell you we have an epidemic of suicide in my 
State of North Dakota. At the Standing Rock Sioux Tribe, we 
have had an epidemic of suicide. Why? Because Chairman Hall 
said it well, it is a lack of hope.
    When you go to a school and that school you can't hear 
yourself think because there is no division between the 
classrooms, that is the high school at Standing Rock, designed 
by apparently an architect in the Southwest who had no clue 
about North Dakota winters. So in one part of that building it 
is 80 degrees; in another part it is 50 degrees, and there are 
no separations in the classroom. You can't hear yourself think. 
How are you going to have a chance to learn in a setting like 
that?
    In housing, I go to Turtle Mountain Reservation 2 years 
ago, I would say to my colleagues, and I was taken into a 
series of homes that had mold infestation that was so 
incredible I literally gagged. And those who were with me, some 
of them retched on the floor. The power of the odor was so 
overwhelming. We went down in the crawl spaces of those houses 
and there was 4 feet of water.
    And the people were sick. They had a type of mold that 
kills people. It is a black mold. And you know, we got a little 
bit of money to build a few new houses, but the fact is there 
are still thousands of people living in those conditions. The 
children die in those homes because of that mold. It causes 
respiratory failure.
    You know, this all says something about what we are as a 
Nation, and what we care about and what we value. People talk a 
lot about family values. One would hope we would value 
families. If families are going to be expected to live in a 
hovel that is so unhealthy that the children die there, what 
kind of a valuing of families is that?
    And then you go to the school and they are in temporary 
quarters, they are in trailers in the middle of a North Dakota 
winter. And you go to the health care facility, and on Texas 
reservations there is no after-hour care is there, Chairman 
Hall?
    Mr. Hall. Absolutely not.
    Senator Conrad. I just asked you, you had an experience 
with a person that had an accident on horseback. What did you 
have to do to get that person to care?
    Mr. Hall. Unfortunately, I had to make out that I was a 
medical doctor. It happened in Cooley, and not only do we not 
have after hours, we don't have weekend coverage. It happened 
on a Saturday and so he got bucked off and the horse went over 
backwards and the saddle horn punctured a hole right in his 
groin area. He was bleeding so bad the only thing I could do 
was use my shirt and my belt to tourniquet him. We do not have 
911, so we don't have that part of the service as well, so we 
had to come around with the pickup about 3 miles around from 
the ranch to the place where it happened. We had to load him up 
and obviously he was going into shock because he was losing so 
much blood. We could not go to New Town, which was like 20 
miles away. We were in Mandareen. We had to go to Watford City, 
and of course I had to also be the ambulance drive and drove 90 
miles an hour.
    Senator Conrad. And how far did you have to go?
    Mr. Hall. About 40 miles. It is almost twice as far because 
we do not have after hours or weekend coverage. It is really 
unfortunate. The physician in Watford said he basically lost 
all his blood. So he needed a transfusion and he said you are 
fortunate that whoever we were with saved your life.
    I have been in those situations far too long. I carried my 
father, and he was a big man. He was 250 pounds, and I had to 
drive him when he had heart attacks because we do not have 
after hours coverage. It is really daunting for a person who 
does not have medical qualifications to have to play doctor to 
do that, just to save a life.
    So I do not care to do that anymore, but when you are faced 
with it, you really don't have a choice.
    Senator Conrad. You know, Mr. Chairman and Senator Inouye, 
Tex was a great basketball player, a great high school 
basketball player, a great college basketball player. He put 
the ball in the hoop. We have very little scoring going on here 
in terms of accomplishments for Indian country with respect to 
these budgets. The needs just continue and they are no being 
met. I think we, too, have an obligation to try to come up with 
a new strategy and a new plan.
    I agree that we ought to ask those in Indian country to 
help make the case and go to our colleagues and go over their 
heads to the American people, but I think we need a new plan. 
We need something dramatic to help our colleagues understand 
how serious the needs are, and what a complete failure the 
Federal Government is meeting our responsibility.
    You know, year after year I come to these hearings. This 
budget is probably the worst one we have seen in a long time, 
but the truth is when we had an Administration of a different 
party, they weren't any good either, if we are going to be just 
honest about it. Something has got to be done.
    The Chairman. Would the Senator yield? My view has been 
that around here, needs that are not met are just needs that 
are transferred. If you do not put the resources into education 
and housing and job development and health care and so on, you 
end up with a higher crime rate, a higher drug abuse rate, a 
higher suicide rate. All the other societal problems go with a 
depressed society or depressed people.
    So when you do not fund needs up front, you are going to 
fund them later whether you want to or not, and they are going 
to cost a heck of a lot more, I think.
    Maybe that is the picture we have to get across to our 
colleagues a little more.
    Senator Conrad. And if there is one place, and I will just 
conclude on this, this is a place where we have a clear 
responsibility. We have treaty obligations. This Government 
made promises, many of which for example with respect to a 
health care facility at Three Affiliated Tribes, which Chairman 
Hall was just describing, we took their hospital. We took their 
hospital and we flooded it. We flooded the land that it was on, 
and we promised them at the time, oh, don't worry, we will 
rebuild that hospital. And we never did. And we never did.
    So people talk about a credibility problem. The Federal 
Government has a credibility problem because these needs are as 
clear as they can be. They are our obligation and it is not 
being done.
    So we need a plan. We need a new strategy for breaking 
through. I thank all the witnesses here today, and I thank 
especially the Chairman and the Ranking Member.
    The Chairman. In terms of the hospital, we did pass a bill 
last year, as you know, Tex said that it went through the 
Senate and is still pending in the House, and that is where we 
have to try and get it.
    Mr. Hall. We are crossing our fingers for that to happen in 
the House.
    Mr. Chairman, I want to thank Senator Conrad and all of you 
for your comments. I just want to make a note that our NCAI 
conference is the 23rd to 25th, 2 weeks from today. Part of our 
strategic plan is public relations, so we are going to have a 
meeting from 8:30-10:30 on February 23, that Monday, so if any 
of your staff can attend this very important meeting, we are 
going to start looking at a strategy and a plan, because you 
are right. We need to do something different. Indian people are 
not to be afraid of. We are a part of America. We have a lot to 
offer and we want to start talking about it.
    The Chairman. I want to thank the panel for appearing, and 
all of our guests and witnesses today. I would remind you that 
the agencies will be testifying on February 25. If anybody 
would like to attend that, please do.
    We will keep the record open for 2 weeks, and there will be 
a number of questions from myself and other committee members, 
including Senator Inouye, that we will send and ask for you to 
get answers to those in writing.
    With that, the committee is adjourned.
    [Whereupon, at 11:30 a.m. the committee was adjourned, to 
reconvene at the call of the Chair.]


=======================================================================


                            A P P E N D I X

                              ----------                              


              Additional Material Submitted for the Record

=======================================================================


Prepared Statement of Action for Indian Health Campaign From California

    The Honorable Chairman Campbell, Vice Chairman Inouye, members of 
the Committee, the Action for Indian Health Campaign [AIHC] from 
California respectfully submits this statement for the record urgently 
requesting adequate health care funding for the Tribal Health Programs 
in California for the fiscal year 2005 appropriations budgeting 
process.
    The AIHC is an alliance of Tribal Health Programs and is comprised 
of Riverside-San Bernardino County Indian Health, Inc. [RSBIHI], Indian 
Health Council, Inc, Southern Indian Health Council [SIHC] and the 11 
member tribal health programs of the California Rural Indian Health 
Board, Inc. [CRIHB]. Collectively, these organizations provide over 
two-thirds of the Indian Health Service [IHS]-funded health services in 
the California Area. This work is done on behalf of 53 federally 
recognized Indian tribes and other American Indians and Alaska Natives 
who reside in the contracted service areas. As is widely known, the 
health care funding for tribal health programs in the California has 
historically been and continues to be substantially under funded.
    The Federal Employees Benefit Package Disparity Index documents 
that tribal health programs in California currently have just 50 
percent of the funds needed to provide the standard of care to our 
existing 68,000 active Indian clients. To fund 100 percent of the need, 
$71,063,437 in new IHS funds are required. Tribal health programs in 
California are one of twelve IHS Administrative Areas and is one of the 
few areas that have no IHS funded hospital facilities to provide 
inpatient, specialty diagnostic and treatment services.
    The absence of Indian hospitals in California is a result of 
Congressional action in the 1950's when Federal lawmakers were 
persuaded to terminate many federally recognized Indian tribes in 
California, along with the single Indian hospital and all Indian health 
care services. Thanks in large part to the work of California Indians 
and their representative organizations, health care funding and related 
services to Indians in the state were reinstated-although at bare 
minimum. California tribal health programs have been referred to as 
``Contract Health Services [CHS] dependent'' because CHS funding 
provides for the purchase of inpatient and specialty services from non-
IHS providers.
    Tribal health programs in California are at a major financial 
disadvantage because areas with IHS hospitals have both facilities and 
CHS funding. The IHS Area that has approximately the same number of 
active Indian clients as the California Area has eight IHS funded 
hospitals and receives $506 per active Indian client in CHS funds. The 
CHS amount in California is $206 per active Indian client. Simply to 
bring California up to the average for CHS Dependent areas would 
require an additional $7,956,000 in new CHS line item funds.
    An on-going myth is that California tribal health programs can use 
the Catastrophic Health Emergency Fund [CHEF] to supplement the low 
California CHS active client monetary acquisition. This could not be 
further from reality. California tribal health programs do not utilize 
the CHEF because of the combined effects of general IHS under funding 
and the specific lack of CHS line item funds. The tribal health 
programs rarely have enough CHS funds to spend on individuals to 
qualify for CHEF funds. A 10-year analysis of CHEF payouts indicates 
that California averaged 7 cases per year while the most active user 
Area of the CHEF program, averaged 161 cases.
    With the award of additional CHS funding from IHS headquarters to 
CRIHB's CHS Demonstration Project, CRIHB demonstrated that the number 
of people in need of CHEF funds was indeed much higher. With an 
additional CHS allocation of $100,000 in fiscal year 1995, CHEF 
utilization reached a 10-year high of 14 cases. In that year the non-
recurring funds were used to pay all CHS costs for cases above the 
threshold of $1,000. This means that more Indian clients in California 
received the health care services they needed.
    Special consideration is also necessary because the newly 
established CHS distribution formula will not address the chronic under 
funding of the CHS program in California. The new CHS distribution 
formula, which IHS Director Dr. Charles Grimm instituted in April 2003, 
provides for a pro rata distribution of CHS funds unless the increase 
to the line item exceeds the Federal Office of Management and Budget 
[OMB] established medical inflation rate. A 10-year analysis comparing 
the OMB inflation rate and the growth percentage of the CHS line item 
indicates that CHS growth exceeded the OMB medical inflation rate only 
4 times in 10 years. Additionally, the equity portion of the new 
formula under counts hospital costs in large segments of the State.
    The AIHC is requesting that Congress support a substantial portion 
of the CHS increase amount for fiscal year 2005 to fund the California 
CHS Demonstration Project as authorized in the Indian Health Care 
Improvement Act *211 as reauthorized in H.R. 2440. Support to this 
Project in the amount of $4,488,000 would bring the CHS allocation to 
California up to the IHS national average allocation of $297 per active 
client and it would not take away CHS funds from the other IHS areas.
    There has long been a series of misperceptions about the health 
status and health services utilization of American Indian and Alaska 
Natives in California that tend to impede the growth of the IHS 
services in the state. The principal causes of these misconceptions are 
the lack of uniform and comparative data. California has a large 
service area, a large number of tribal governments [107], though most 
California tribes are small. In addition there are large numbers of IHS 
eligible California Indians who are not members of federally recognized 
tribes [29 percent of active users] and the relatively large percentage 
of IHS active users who are members of tribes located outside of 
California [25 percent of active users]. These complexities are 
compounded by the multiple sources of funding for Indian health care in 
California and the paucity of reliable information from both State and 
Federal sources.
    According to recent California Indian health services research 
studies, conducted by Dr. Carol Korenbrot:
    The hospitalization rate for IHS active users in California [980 
per 10,000] is directly comparable with that of the Aberdeen Area [907 
per 10,000] and second only to the rate of the Alaska area. This 
disparity is indicative of a population in California with high levels 
of morbidity and counters recent IHS data which erroneously indicates 
that only 17 IHS active Indian clients were hospitalized.
    The Medicaid expenditure on IHS active users in California who are 
also eligible for Medicaid are found to be only 88 percent of those for 
a matched sample of non-Indians in the same counties. This disparity is 
consistent with systematic barriers for Indians in finding specialty 
care, even with Medicaid coverage.
    The avoidable hospitalization rates for California Indians are 30 
percent higher than those of the general California population. This 
disparity is indicative of a deficiency in access to effective 
ambulatory care services.
    Non-IHS hospitals in California appear to absorb the burden of 
between $5.7 and $8.2 million per year in uncompensated care for Indian 
clients of tribal health programs.
    In order to maintain and expand this level of health status and 
services research, the AlHC is requesting that Congress support $2 
million to fund IHS EpiCenters in the remaining four IFIS Areas without 
such a program--Billings, Oklahoma, Navajo, and California.
    In short, the AIHC is requesting that in fiscal year 2005, Congress 
support $4,488,000 of the CHS increase amount to fund the California 
CHS Demonstration Project and $2 million of increased funding for IHS 
EpiCenters.
    The AlHC thanks you Mr. Chairman, Mr. Vice Chairman and members of 
the Senate Committee on Indian Affairs for taking the time to further 
understand the funding needs of the tribal health programs in the 
California IHS Service Area and asks you to provide the health care 
funding being requested.

[GRAPHIC] [TIFF OMITTED] T1835.001

[GRAPHIC] [TIFF OMITTED] T1835.002

[GRAPHIC] [TIFF OMITTED] T1835.003

[GRAPHIC] [TIFF OMITTED] T1835.004

[GRAPHIC] [TIFF OMITTED] T1835.005

[GRAPHIC] [TIFF OMITTED] T1835.006

[GRAPHIC] [TIFF OMITTED] T1835.007

[GRAPHIC] [TIFF OMITTED] T1835.008

[GRAPHIC] [TIFF OMITTED] T1835.009

[GRAPHIC] [TIFF OMITTED] T1835.010

[GRAPHIC] [TIFF OMITTED] T1835.011

[GRAPHIC] [TIFF OMITTED] T1835.012

[GRAPHIC] [TIFF OMITTED] T1835.013

[GRAPHIC] [TIFF OMITTED] T1835.014

[GRAPHIC] [TIFF OMITTED] T1835.015

[GRAPHIC] [TIFF OMITTED] T1835.016

[GRAPHIC] [TIFF OMITTED] T1835.017

[GRAPHIC] [TIFF OMITTED] T1835.018

[GRAPHIC] [TIFF OMITTED] T1835.019

[GRAPHIC] [TIFF OMITTED] T1835.020

[GRAPHIC] [TIFF OMITTED] T1835.021

[GRAPHIC] [TIFF OMITTED] T1835.022

[GRAPHIC] [TIFF OMITTED] T1835.023

[GRAPHIC] [TIFF OMITTED] T1835.024

[GRAPHIC] [TIFF OMITTED] T1835.025

[GRAPHIC] [TIFF OMITTED] T1835.026

[GRAPHIC] [TIFF OMITTED] T1835.027

[GRAPHIC] [TIFF OMITTED] T1835.028

[GRAPHIC] [TIFF OMITTED] T1835.029

[GRAPHIC] [TIFF OMITTED] T1835.030

[GRAPHIC] [TIFF OMITTED] T1835.031

[GRAPHIC] [TIFF OMITTED] T1835.032

[GRAPHIC] [TIFF OMITTED] T1835.033

[GRAPHIC] [TIFF OMITTED] T1835.034

[GRAPHIC] [TIFF OMITTED] T1835.035

[GRAPHIC] [TIFF OMITTED] T1835.036

[GRAPHIC] [TIFF OMITTED] T1835.037

[GRAPHIC] [TIFF OMITTED] T1835.038

[GRAPHIC] [TIFF OMITTED] T1835.039

[GRAPHIC] [TIFF OMITTED] T1835.040

[GRAPHIC] [TIFF OMITTED] T1835.041

[GRAPHIC] [TIFF OMITTED] T1835.042

[GRAPHIC] [TIFF OMITTED] T1835.043

[GRAPHIC] [TIFF OMITTED] T1835.044

[GRAPHIC] [TIFF OMITTED] T1835.045

[GRAPHIC] [TIFF OMITTED] T1835.046

[GRAPHIC] [TIFF OMITTED] T1835.047

[GRAPHIC] [TIFF OMITTED] T1835.048

[GRAPHIC] [TIFF OMITTED] T1835.049

[GRAPHIC] [TIFF OMITTED] T1835.050

[GRAPHIC] [TIFF OMITTED] T1835.051



                        FISCAL YEAR 2005 BUDGET

                              ----------                              


                      WEDNESDAY, FEBRUARY 25, 2004


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m. in room 
485, Russell Senate Building, Hon. Ben Nighthorse Campbell 
(chairman of the committee) presiding.
    Present: Senators Campbell, Inouye, Johnson, Murkowski, and 
Thomas.

        STATEMENT OF HON. BEN NIGHTHORSE CAMPBELL, U.S. 
         SENATOR FROM COLORADO, CHAIRMAN, COMMITTEE ON 
                         INDIAN AFFAIRS

    The Chairman. The committee will be in session. We are 
going to go ahead and start. Senator Inouye called and is stuck 
in traffic. He will be along shortly. We have been notified 
that we have a vote at 10:30 and that gives us a very limited 
time, so I am going to go ahead and start and get through as 
much as we can.
    Welcome to the second hearing of the fiscal year budget 
request for Indian programs submitted on February 2 by 
President Bush as part of the larger budget request. This 
morning, the committee will hear from six Federal agencies 
responsible for various Indian programs and services. The 
request includes a total of $10.8 billion for the Department of 
the Interior, with a modest increase proposed for Indian law 
enforcement, fire management, and others. Major increases are 
proposed for the Office of Special Trustee and Related Trust 
Activities. Modest increases are proposed in the Indian health 
and other accounts. Rather than go through that list of 
increases and decreases, I will submit a detailed statement for 
the record.
    I would like to make one comment for those in attendance. 
Last week, I think we witnessed a major breakthrough in the 
Cobell v. Norton case, as the plaintiffs and the defendants 
agreed to move to the stage of meeting with the selected 
mediators to resolve the case that has been ongoing for a 
number of years. This event is a very big issue, I think, and I 
believe that if the Indian account holders are going to 
benefit, it is going to come about from a negotiated 
settlement, and not from another 8 years of litigation.
    With that, we will go ahead and start with Mr. Swimmer. 
Welcome to the committee. Why don't you proceed? For all of the 
witnesses, your complete written testimony will be submitted 
for the record and will be read very carefully, and if you 
would like to abbreviate it in the interest of time, because we 
will have a vote, go ahead and do it.

    STATEMENT OF ROSS SWIMMER, SPECIAL TRUSTEE FOR AMERICAN 
  INDIANS, DEPARTMENT OF THE INTERIOR, ACCOMPANIED BY AURENE 
MARTIN, PRINCIPAL DEPUTY ASSISTANT SECRETARY FOR INDIAN AFFAIRS

    Mr. Swimmer. I will certainly do that, Mr. Chairman. I 
appreciate the opportunity to be here this morning and to 
provide some information regarding the proposed budget for 
2005. I second the optimism of the chairman regarding the 
mediation process. On behalf of the Office of the Special 
Trustee, I want to thank you and the staff, particularly, for 
their hard work in assisting us to bring the parties to the 
table. We are optimistic that this mediation process will be 
successful.
    The Trust budget encompasses numerous items that are 
detailed in the statement and in the budget that the committee 
has seen. I will just go through some of the highlights of that 
to give the committee an idea of what we expect to do in 2005 
as a result of the budget.
    The Unified Trust budget has grown from approximately $243 
million in fiscal year 2000 to over $600 million proposed for 
fiscal year 2005. That is a huge increase in the Trust budget, 
if you will, for the Department of the Interior and certainly 
for the Bureau of Indian Affairs [BIA] and Office of the 
Special Trustee.
    However, I would like to focus on the two items in 
particular that make up a large part of that increase. One is 
the $109 million proposal for fiscal year 2005 that would fund 
approximately one-third of the cost of doing the historical 
accounting that the Department had proposed in its plan 
submitted to the court last year. We feel that this is an 
appropriate request if we do not have any further direction 
from Congress or from the mediation process or the court. We 
feel that it is important that we do proceed with that 
accounting as we understand it and as has been proposed by the 
Department.
    The other major item is an increase to $75 million for the 
Indian land consolidation project. This is a project that is 
extremely important to Indian country. It is a major cost item 
on an annual basis for the Department, both in the BIA and the 
Special Trustee's office, Bureau of Land Management and even 
Minerals Management Service. We are trying to track roughly 
260,000 accounts for Indian individuals and special deposit 
accounts and various and sundry others. Almost 20 percent of 
those accounts, or about 15 percent of those accounts, have 
less than $1 in them. It costs us certainly in excess of $100 a 
year per account just to keep those accounts on the books. We 
have no authority to do anything with those accounts.
    Those accounts come from, in many cases, income of highly 
fractionated land. It is not uncommon today to have 50 or more 
owners of a tract of land. I believe our statistics indicate 
that the most highly fractionated is a tract of land in the 
Midwest where we have been working on the ILCA program. I 
believe it is 2,500 owners of about 80 acres of land. Even if 
that 80 acres generated substantial income, which I do not 
believe it does in this case, trying to divide that among 2,500 
owners, actually capture the money identify ownership, invest 
it, collect interest on it, and then pay it out, is a huge 
expense.
    In fact, we do have a policy that we do not cut a check 
until the amount owed to the participant is at least $15, and 
we have literally tens of thousands of accounts that it takes 
years for it to ever get to $15. In fact, we have many 
accounts, Mr. Chairman, that require that we round up to a 
penny. Fractionation is a problem. We believe that this is an 
amount that can be well spent and will go a long way to relieve 
the problem, or at least begin the process of relieving the 
problem of fractionation and the costs associated with these 
small accounts.
    It is an interesting statistic. The revenue generated from 
the money that we are asking for in the Trust budget is 
approximately $194 million for the individual Indian money 
account holders, and $378 million from tribes. In addition to 
that, we manage on a continuing basis approximately $3 billion 
of trust funds that are already on deposit. Those two numbers 
total about $572 million. If you look at the Trust budget, it 
is almost exactly the same amount of money. In fact, given the 
accounting and the land consolidation budget for fiscal year 
2005, it is actually about $100 million more. I am sorry, about 
$30 million more than what is actually collected.
    Other key items in the Special Trustee's budget are the 
reorganization and the re-engineering. The reorganization that 
was begun last year is virtually complete. We are using the 
fiscal year 2004 appropriations to hire the trust officers and 
the Trust administrator's that were part of the Special 
Trustee's reorganization project. We will have a few staff that 
will be hired, support staff, in 2005. There are approximately 
$2 million in the Special Trustee's budget for 2005 directed 
toward the completion of the hiring of the staff for 
reorganization.
    I believe that there is about $5 million in the BIA budget 
that will complete that process, their portion of the 
reorganization, but there is really not much money that is 
committed for reorganization. Most of that was handled in-house 
within the existing budget in 2003 and 2004, and is now 
virtually complete, as I mentioned.
    The reorganization is extremely important, however, in 
terms of assisting the local BIA agencies, to do the job that 
they are charged with in terms of administering the trust, the 
trust assets, and providing services to the beneficiaries. 
Almost all of the money that is scheduled this year and for 
2005 for reorganization will be spent at the local level. It 
will be spent providing increased beneficiary services. It is 
going to be spent to support increased administration of the 
trust assets, and to ensure that at least on a going forward 
basis, we have a complete accounting on a regular basis of all 
the income that is collected and we are able to ensure the 
title information is correct for those individuals that own 
property.
    The operating budget for the Special Trustee's office is 
actually right at $105 million. That is a slight decrease from 
last year. The other items that bring the budget of the Special 
Trustee to $322 million are those things I mentioned, the 
addition of the $75 million for ILCA, the $109 million for the 
accounting, and then various transfers out of our budget to the 
BIA, things like computer support, probate, the Office of the 
Secretary for the Trust architect in the CIO's office, Chief 
Information Office, and for expenses of the Office of Hearings 
and Appeals, also related to probate.
    While it appears that the Special Trustee's office budget 
is fairly dramatic as far as the increase for 2005, I want to 
reiterate the actual operating budget that we are working with 
is flat. The increases are primarily those two items in the 
historical accounting and in the ILCA program.
    So with that, if the committee has questions, I would be 
happy to answer those questions and provide any other 
information that I might.
    [Prepared statement of Mr. Swimmer appears in appendix.]
    The Chairman. There will be a number of questions. Most of 
mine I will submit in writing, but I will ask you a couple in a 
minute. Let's go ahead with Mr. Hartz, since we have such a 
short period of time.

  STATEMENT OF GARY HARTZ, ACTING DIRECTOR, OFFICE OF PUBLIC 
 HEALTH, INDIAN HEALTH SERVICE, DEPARTMENT OF HEALTH AND HUMAN 
SERVICES, ACCOMPANIED BY ROBERT G. McSWAIN, DIRECTOR, OFFICE OF 
  MANAGEMENT SUPPORT; AND DOUGLAS BLACK, DIRECTOR, OFFICE OF 
                        TRIBAL PROGRAMS

    Mr. Hartz. Thank you, Chairman Campbell and Senators 
Johnson and Thomas. We are pleased to come before you this 
morning to present the IHS budget for fiscal year 2005.
    As I was preparing for just making a few opening remarks 
for the hearing, I realized that this is the 50th anniversary 
submission of the IHS budget. We are just approaching our 50th 
year in existence. We were transferred from our colleague's 
agency a number of years ago now.
    In preparing for the hearing, I also noted some remarks 
that were made by Senator Inouye about 2 weeks ago about the 
story to be told about Indian health. He remarked that it was a 
good story. As I reflect back for just a couple of moments 
regarding that good story, I am pleased to say that I was part 
of that story for two-thirds of those 50 years, in providing 
health care to American Indians and Alaska Natives. We have 
seen really good budgets and we have seen some that have been 
tighter than others because of constraints that faced the 
country at various times throughout those 50 years. Plus, I 
have very personally observed them during my tenure.
    What we have focused on, is a program that has continued to 
provide good health to Indian people, is prevention and public 
health. It is critical. In today's environment of the changing 
demographics of disease among the American Indian population, 
we can see more and more that behavior and lifestyle is what is 
affecting health status. We have looked to, as Dr. Grim pointed 
out last year, how we can better partner with other 
organizations and collaborate enhance the resources that we 
have, how we can leverage funds into expanded programs.
    Some examples of the kinds of things we have done just in 
the tenure that I am talking about in my professional career, 
we have by, 60, approximately, percent reduced the maternal 
deaths. Infant mortality, unintentional injuries, and 
gastroenteric death rates also dropped dramatically. I alone 
have seen the percent of homes with adequate water and sewer go 
from 40 percent to almost 93 percent.
    These are remarkable accomplishments in a relatively short 
period of time. We still have a long way to go, and we believe 
by the budget that we presented in dealing with public health 
items like health promotion, disease prevention, and if we 
believe that personal lifestyles and personal healthy behavior 
can address the obesity issues, we will address some of the 
precursors to diabetes, which is a major precursor to the 
problems of by cardiovascular disease.
    We see these initiatives, plus those of the Secretary and 
others, and the resources we are getting from others, like 
National Institutes of Health, we are accessing their resources 
to develop our Native American Research Centers for Health, 
working in concert with other entities of HHS under the 
Secretary's guidance to further supplement the resources we 
have.
    The Tribal Epi Centers are a critical aspect of making sure 
that when we do have funds, that we can target our 
interventions most appropriately. This afternoon I will be 
leaving for the dedication of the Northern Plains Tribal Epi 
Center for the Aberdeen area in Rapid City, SD. I want to thank 
this Congress and others for the work that they have done to 
help support us and support the Aberdeen area tribal chairman's 
health board in pulling that together.
    I am really looking forward to going there and being part 
of their dedication and to share with them this event. It is 
quite a task. We have requested additional funds to establish 
up to four more Tribal Epi Centers and include the areas that 
we have not been able to address.
    A final comment I will make regarding accomplishments, and 
that lies in the capabilities and outstanding accomplishments 
of the tribes in taking over now 52 percent of the resources 
that we get for health services. They are doing just a 
wonderful job.
    We are pleased with the resources that are coming to us to 
address diabetes. In 2004, we are getting a $50-million 
increase. With that, we are going to even go further in 
targeted interventions through strategies to take advantage and 
enhance some of the interventions that have proven to be most 
effective. As an example, in preparation for the potential that 
the special legislation was going to run out and not get 
reauthorized, we were preparing a requested report to Congress. 
Now it has become an interim report that is coming to Congress 
because of the reauthorization, but there were some important 
items that were highlighted as we prepared to present that 
report.
    Just two that I will focus on. First, the community-based 
physical activity programs for children youth and families 
existed before 1998 in 10 percent of the locations where the 
diabetes grants were awarded. Taking a look 4 years later, 71 
percent of the locations had programs within the communities. 
So they were making inroads into getting these activity 
programs developed.
    Also, school-based health programs focused on physical 
activity. Only 22 percent of the grantees had that in existence 
in their schools prior to 1998. After 2002, it is up to 53 
percent. We need young people to get their exercise. We need 
them to get it early and we need to have that as a part of 
lifestyle.
    There are many things that can be done related to public 
health and prevention. As my mother used to say, an ounce of 
prevention is worth a pound of cure. That is so, so true when 
we start dealing with lifestyle and behavioral issues. If we 
can make those inroads early, the costs are much, much less. We 
believe with this budget, we will be able to make some more of 
those inroads to deal with public health and prevention.
    Finally, I do not want to leave here with you thinking that 
all these good things happening is just Hartz's perspective on 
Indian health. We have been assessed through the program 
assessment rating tool that is done through OMB. We 
consistently rank about the highest in our Department, and 
actually higher than comparable entities in other departments 
that are delivering health care. We have been evaluated on our 
direct patient care program, direct health services, on 
sanitation facilities, on our RPMS system as a part of our IT, 
and our urban programs. So we have had the outside reviews as 
well. We are pleased in what we have been able to accomplish. 
We know there is a lot more yet to be done.
    With that, I will submit the rest of my statement for the 
record, sir.
    [Prepared statement of Mr. Hartz appears in appendix]
    The Chairman. Before we go to questions, I will ask our 
vice chairman, Senator Inouye, if he has any comments. But 
maybe let me ask you one thing first, because I just thought 
about this. Not too long ago the Senate confirmed Secretary 
Anderson. Dr. Grim has been confirmed for a while. Why, when it 
is such an important year this year dealing with Indian 
programs, are they not here, either one of them?
    Mr. Hartz. Dr. Grim had a longstanding personal commitment 
that he was unable to break. Sir, I apologize if we are not 
going to be able to respond to your questions on these matters. 
We will try to do that. If in fact, we are unable to do that, 
we will certainly provide any responses for the record. He was 
really disappointed in not being able to make it, but at the 
same time he trusted that we would bring forth the issues and 
respond as best we can.
    The Chairman. Mr. Swimmer, where is Assistant Secretary 
Anderson?
    Mr. Swimmer. I really do not have an answer for you. I 
think that certainly the Principal Deputy Assistant Secretary 
Martin is here, and I would suggest that it has a lot to do 
with the learning curve and that he just has not been able to 
have the time to become real familiar with the budget and 
preferred that she present it. She may be able to answer that 
question.
    The Chairman. Okay, well, that is all right. You might just 
pass a message on from me personally as the chairman. I have a 
patience curve, too. It seems to me if we can take the time to 
deal with something as important as Indian country on both 
health and all the other agency issues for the BIA, they ought 
to be here. Would you pass that on to them? They are going to 
find a less friendly chairman if they do not get over here when 
we are doing hearings which it is very important that they are 
here.
    Mr. Hartz. I will do so, sir.
    Mr. Swimmer. Yes, sir.
    Senator Inouye. Mr. Chairman, my apologies for being late, 
but we were detained by an accident that included helicopters 
and sirens. We were not in the accident.
    The Chairman. I am glad of that.
    The Chairman. Let's see, I believe Senator Johnson, you 
were here next. Did you have a statement before we go to 
questions?

 STATEMENT OF HON. TIM JOHNSON, U.S. SENATOR FROM SOUTH DAKOTA

    Senator Johnson. Just very briefly, Mr. Chairman.
    Mr. Chairman and Vice Chairman Inouye, thank you for 
holding the hearing. At last week's budget hearing, I more 
fully expressed my concerns about the President's budget. I 
will not repeat myself. My concerns are frankly multiple in 
nature. However, I would like to make just a brief comment on a 
couple of issues of concern brought to me by my South Dakota 
tribes.
    First of all, I do want to address just very briefly the 
reorganization that is taking place. It is led by Mr. Swimmer. 
The tribes from my home State of South Dakota are deeply 
impacted and they are concerned about this. By law, the Federal 
Government must protect the interests of tribes and its members 
as their trustee. The facts have demonstrated over the years 
that the Federal Government has failed in its responsibilities 
to tribes. Broadly speaking, I am concerned that the President 
wants to fund the Office of Special Trustee at the expense of 
other Indian programs.
    While I understand that we need to fund the Trust Program, 
the Department of the Interior's failure to set up the Office 
of Special Trustee in a manner that my tribes see as respectful 
and then turn around and use funds that should otherwise go 
toward TPA, law enforcement, education, housing and so on, they 
view, and I share their concern, as another breach of the 
Federal Government's responsibilities, borne out of treaties 
and trust relationships.
    Second, we are spending, as we all know, $1 billion a week 
in Iraq, and some of that is going to building hospitals and 
schools, but the White House tells us that we are going to cut 
funding for construction of hospitals and schools here at home. 
Overall, the BIA school construction account is being cut by 
almost $66 million.
    One of the schools on the construction priority list is 
Enemy Swim up at Sisseton-Wahpeton. I am very pleased that 
Acting Secretary Aurene Martin has issued a decision to the 
tribe indicating that its square footage and funding was set. 
So you can imagine my surprise and dismay this week when 
Chairman J.C. Crawford at Sisseton-Wahpeton told me that the 
BIA at Albuquerque is now reneging on that promise. I am very 
pleased that Ms. Martin has worked so closely with myself and 
my office.
    We will continue to work with her, but it would appear that 
some of the subordinates at Albuquerque are calling shots they 
should not be calling. You can believe that the Sisseton-
Wahpeton delegation, including Senator Daschle and our friends 
from North Dakota, will be following up on this with great 
energy.
    Every aspect of Indian funding is hurting, housing, health 
care, education, and infrastructure. I understand it is a tough 
fiscal year and I understand the tribes are not going to get 
everything that they would like. However, there are just 
profound problems with the President's budget.
    I will conclude my comments today by making mention of a 
major concern of all of our tribes. Tribes are simply not 
getting the funding they needed to have credible tribal courts 
and effective law enforcement. This was highlighted to me by 
the Rosebud and Pine Ridge delegation, and underscored by the 
domestic violence advocates. The safety of our people literally 
is at risk. They have the statistics to prove it. We have to be 
responsive to that need.
    I welcome Mr. Hartz to South Dakota, and I also want to 
express appreciation again for Dr. Grim's willingness to come 
to South Dakota. I think they are doing the best they can with 
an inadequate budget, but I am appreciative of their 
willingness to come out and see first-hand on the ground the 
crisis that we have there.
    I am disappointed, and I share your disappointment, Mr. 
Chairman, that at this hearing not only is Mr. Anderson not 
here, but the BIA itself has not even testified. I commend Ms. 
Martin for her work, but I think that it would serve the 
committee well if the BIA's agenda was laid out in a more 
explicit manner here before the committee.
    Thank you, Mr. Chairman.
    The Chairman. Senator Thomas, comments?
    Senator Thomas. No; I really do not have a statement, Mr. 
Chairman. I am pleased to be here. It is going to be difficult 
and we are going to hear all the time that there is not enough 
money in these budgets by the same people who are complaining 
about the deficit. So it is going to be hard to balance these 
things. We look forward to working with it to fill the needs.
    The Chairman. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.

   STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR FROM ALASKA

    Senator Murkowski. I would like to make an opening 
statement. I do not know if I am going to be around to ask 
questions of the witnesses, as I have to go preside this 
morning. So I would like to make a couple of comments about the 
budget that we have in front of us, the second in our series of 
hearings on the fiscal year 2004 budget request. A couple of 
weeks ago we heard from the representatives of the tribes. 
Ordinarily, it is in the other order. We will hear from agency 
witnesses first, but because of the ricin incident, the people 
spoke up first on this.
    As we look at the committee room, the constituents of this 
committee are the Indian tribes and the Alaska Native villages 
that make up Native America. It is appropriate that the 
agencies which have a trust responsibility to our first people, 
listen first and then speak. So it is interesting that it has 
kind of worked out that way this particular year.
    To the representatives of our agencies, I hope that you 
took the time to review the testimony of the tribal 
representatives. In its coverage of the hearing, the newspaper 
Indian country Today took note to the testimony of my 
constituent, Don Kashevaroff, who is the chief of the Seldovia 
Village Tribe. He asked why in this trillion dollar budget can 
we not keep the first Americans from falling behind in health 
care. Don's testimony really struck a chord in me.
    The budget that has been presented calls for $2 trillion in 
overall spending, $782 billion in discretionary, and yet the 
Community Health Aid program in Alaska, which is truly an 
innovative program which provides the only health care 
available in some 178 Alaska Native villages, gets an increase 
of $2 million. Don't get me wrong. I am glad that Community 
Health Aid is getting funded at all, but the need is more on 
the order of $7.4 million. In a budget with more than $700 
billion of discretionary spending, we end up quibbling or 
arguing over about a $5-million difference.
    Rural sanitation issues. The environmental engineers who 
devote their lives to ending the third world conditions that 
plague our Native villages and the Indian reservations of the 
lower 48 say that they need a $20-million increase to continue 
their progress in fiscal year 2005, yet there is only a $10-
million increase in the budget request. We know, certainly 
Senator Thomas has indicated, we all know this is a tough, 
tough budget year. An increase is an increase and we are 
thankful for that, but we need to look at where we are, where 
we are seeing these reductions. When we are talking about 
improving the health conditions of my constituents, of the 
Alaska Native people, it is a concern.
    Roughly a $1.6-billion unmet need in Indian sanitation and 
about 40 percent of that unmet need is in Alaska, where we have 
some 38 percent of the homes that do not have potable water. We 
can really do better than that. We should do better than that.
    There is the IHS facilities construction budget, which 
really sticks out. I suppose it is something of a blessing that 
there are modest increases in some of the clinical services 
accounts, but we have been presented with a $52-million 
decrease in the facilities construction budget. We have a 
hospital, an IHS hospital up in Barrow, Alaska in desperate 
need of replacement. The Nome hospital is also not far behind. 
But this budget will not be sufficient to move forward with 
these next steps.
    Now, I know that many of the witnesses in the hot seat 
today are advocates for the Native people in their respective 
agencies. I know that they may have had other ideas for the 
budget. Likewise, there are many different ideas about how much 
of a budget increase we can achieve for Indian health in the 
current environment.
    Some of my colleagues believe that we should focus on the 
disparity between what the Federal Government spends on each 
Indian and what it spends on a Federal prisoner. I think it is 
a tragedy that we have to do that. The National Indian Health 
Board has suggested that a reasonable increase this year should 
be on the order of 15 percent. I would like to think that we 
might be able to come close to that.
    Mr. Chairman, I want my colleagues to know that I look 
forward to working with them, certainly on a bipartisan basis, 
to work with this budget, to amend this budget so that it does 
include a meaningful increase for Indian Health Services.
    This budget not only causes our first Americans to fall 
behind in health care, as I have mentioned, but it also causes 
our first Americans to fall behind in housing and in education. 
I am skeptical about whether the $5 million increase in the 
tribal priority allocations is minimally sufficient. I hope 
that we will be able to find some additional money for these 
areas as well.
    As I have indicated, Mr. Chairman, I probably will not be 
around to ask the series of questions that I would like this 
morning. I appreciate the opportunity to serve on this 
committee and to help you and the others work to improve the 
lot of our Native peoples wherever they live throughout the 
country. I look forward to the testimony this morning.
    Thank you.
    The Chairman. Thank you.
    I have a series of questions dealing with the new 
secretarial authority with probate reform, with fractionation 
and a bunch of things, but I am going to submit those because 
we have four people more that we are going to try and fit in 
before we have to go vote. I am going to submit those for the 
record and would ask that you get back in writing all the 
questions I submit to you.
    I will yield to Senator Inouye.
    Senator Inouye. Mr. Chairman, I will do the same. I have 
questions for the Director. First, this is a special request of 
the Indian Health Service people. Will you convey to the Indian 
Health Service our request that, if they would be willing, 
would they meet with the representatives of the board of the 
Tuba City Regional Health Corporation in regard to their 
proposal for a joint venture with the Indian Health Service 
while they are they are in town this week? Can you arrange that 
meeting?
    Mr. Hartz. Absolutely. I was aware that they were in town 
and that there was a request being made. Yes.
    Senator Inouye. I am certain they will be very pleased.
    How will the President's budget request for fiscal year 
2005 address pay raises, population growth, and inflation?
    Mr. Hartz. The budget includes $36 million for pay to 
address Federal and tribal and urban pay in this particular 
budget.
    Senator Inouye. Will this in any way address the 
disparities between American Indians and Alaska Natives and the 
rest of America?
    Mr. Hartz. The primary way that we see addressing those 
disparities with the budget that we have presented are picked 
up in some of the elements. As an example, the health promotion 
and disease prevention dollars that we have requested. As I 
indicated earlier, we believe a lot of inroads can be made in 
some of the chronic diseases, even though it is going to take 
time, by addressing changes in lifestyle and behaviors.
    Additionally, we are looking to establish additional Tribal 
Epi Centers by which we can better target our efforts and 
ensure that the limited resources can be most appropriately 
used to address those disparities. Sanitation facilities is 
another arena that we believe assists us in addressing the 
disparities as well. This request includes $10 million for that 
purpose.
    Senator Inouye. The census suggests that the urban Indian 
population has increased quite a bit, yet the level of funding 
for urban Indian health programs remains at $32 million. Is 
that sufficient?
    Mr. Hartz. The budget as it relates to pay act includes 
about a 2.5-percent increase for the urban program. The overall 
funding that IHS provides to the 34 urban programs amounts to 
about 48 percent of their program. They actually do very, very 
well in leveraging their resources, as IHS does in a number of 
its programs. One that came to mind, as Senator Murkowski was 
talking about sanitation is that for every dollar appropriated, 
we are getting almost 50 cents from other sources to supplement 
our appropriations. Urbans do very, very well in that regard.
    Senator Inouye. There is a $1-billion backlog in facilities 
construction in Indian country, yet you have a $42-million 
decrease proposed for this century. How do you hope to cope 
with this critical need?
    Mr. Hartz. There is no question it will be difficult, 
however the important thing that comes out of this budget is we 
are going to be able to bring on line, with that $23 million in 
staffing, five new facilities. Three of those came out of the 
Joint Venture Program that the tribes are constructing with 
their capital funds. With your support, we are going to be able 
to staff, equip and operate all of those facilities.
    So there are five facilities, and we are going to complete 
funding with the facilities dollars that we are requesting in 
this appropriation for Sisseton and Red Mesa, Sisseton in South 
Dakota, Red Mesa in Arizona. We have resources to move forward 
on the designs at Clinton and Eagle Butte. So we are continuing 
to address that backlog, but as you point out, sir, we are not 
moving as rapidly.
    Senator Inouye. Among the primary responsibilities of your 
Service, I am certain you will agree that provision of safe and 
adequate water supply systems and sanitary sewage waste 
treatment is a high priority. Because of the rural nature of 
Indian country, and because of the neglect of the past, many 
reservations lack basic infrastructure. For example, one out of 
every five Indian houses lacks complete plumbing facilities. I 
have been in several of those without plumbing facilities. How 
do you propose to cope with this?
    Mr. Hartz. Well, this budget identifies an additional $10 
million for the sanitation facilities program, which will take 
us from $93 million to $103 million. As I was reflecting back 
in my opening remarks, we have come a long way from when I, as 
a field engineer, chatted with an elderly Navajo lady near her 
hogan about bringing water and sewer into her home.
    Well, we were having a little difficulty because I did not 
speak Navajo too well and she did not speak English too well. 
So through our sign language and ultimately the help of a fine 
Navajo interpreter, I found out what her position was on this 
issue. She was very much interested in the water coming, 
``well, I wanted a yard hydrant,'' and then she was convinced 
that she would have water to her kitchen sink. But there was no 
way under the sun that she was going to defecate in her home. 
So the appropriate technology at that time was the pit privy. I 
am not saying that is where we are today, but we unfortunately 
do have some folks, as was pointed out in Alaska, utilizing 
less than what we are accustomed to. We believe that this $10 
million will assist us in furthering our efforts to address 
that backlog of sanitation deficiencies.
    Senator Inouye. One of the reports that we have read 
suggests that there are more overcrowded conditions in Indian 
housing than anywhere else in the United States, if not in the 
world. Do those conditions continue to exist?
    Mr. Hartz. I suspect that HUD might have a better answer 
for that than I might. I have seen instances where there is 
still quite a need for housing through some of the analysis 
that the BIA home program has done.
    I will just stop there, because I am getting into an area 
that I am not real familiar.
    Senator Inouye. I asked that question because the crowding 
of rooms affects health, does it not?
    Mr. Hartz. Absolutely. Tuberculosis is one of them, sir, 
and other communicable diseases. So, we are encouraged by any 
resources that can be provided for housing programs in Indian 
country.
    Senator Inouye. How many professionals work in the Indian 
Health Service?
    Mr. Hartz. Our staffing level is right at about 15,500.
    Senator Inouye. Professionals?
    Mr. Hartz. Actually, I consider everybody professional. 
Where are you drawing the line, sir?
    Senator Inouye. Okay. Of that number, how many are Native 
Americans?
    Mr. Hartz. Of our 15,250 employees, two-thirds of them are 
Native American, 10,580.
    Senator Inouye. Out of 15,000, 250 are Natives?
    Mr. Hartz. Out of a total of 15,250 approximately, just 
under 10,600 are Native Americans, American Indian or Alaska 
Native.
    Senator Inouye. We have a way to go yet, have we not?
    Mr. Hartz. We certainly do. We are making tremendous 
inroads through the scholarship program and through loan 
payback and with the scholarship programs of other departments 
as well.
    Senator Inouye. Thank you very much.
    The Chairman. Senator Murkowski, did you have questions 
before we move on?
    Senator Murkowski. Yes; just very quickly about the 
contract support clause, if I may.
    My Alaska providers and the self-governance tribes 
nationally are pretty upset about the gap between contract 
support costs owed and the amount paid. What I would like to 
know is how much does IHS currently owe the tribes? If contract 
support costs are funded at the budgeted amount, how much will 
the tribes be owed at the end of this fiscal year 2005? Can you 
address that?
    Mr. Hartz. There is a fund called the shortfall fund that 
has been identified. I presume that is what you are referring 
to. That amount is currently at about $100 million.
    Senator Murkowski. That amount is $100 million, then if the 
contract support costs are funded at this budgeted amount, how 
much will then be owed to the tribes?
    Mr. Black. Senator, we fund about two-thirds of the need 
right now. As Mr. Hartz said, the requirement actually 
projected for 2005 is $111 million shortfall.
    The Chairman. For the record, would you identify yourself?
    Mr. Black. I am sorry. Excuse me. My name is Douglas Black. 
I am the director of the Office of Tribal Programs in IHS.
    So there is an enormous shortfall in contract support 
costs. Our average level of funding for contract support costs 
of tribes in the Indian Health Service is about 82 percent, but 
we do have tribes even funded below that average.
    Senator Murkowski. So you say that it is about two-thirds 
is what you would makeup. So how do the tribes fund the 
difference? Do they do it through cuts in services or how is 
that made-up?
    Mr. Black. Senator, we project that we will fund roughly 
two-thirds of the cntract support cost need in 2005 with having 
to makeup the other one-third of the CSC need. Reluctantly, 
that is what they are having to do. Many of the tribes, I 
believe, are having to divert some of their health care money 
to support administrative functions that are critical to health 
care delivery. It is not a good situation, but it is the 
reality that we presently find ourselves in.
    Senator Murkowski. I know I was only going to ask about the 
contract support costs, but since I have you here, I mentioned 
the Alaska Community Health Aid Program and the value to 
certainly my constituents in Alaska. I mentioned that we are 
going to be looking at a funding increase of $2 million. Based 
on what you know of the program and how it works in Alaska, do 
you believe that it merits an additional increase?
    Mr. Hartz. The Community Health Aid Program in Alaska is 
truly a model. It does a remarkable job in its outreach to 
those village communities and what it is able to do through the 
utilization of tele-health. Having experienced those aids 
sending in their digital images into Kotzebue from the outlying 
communities when there is no other means of transportation or 
to have the highly trained health professional people out there 
in the villages daily. I am truly impressed. Worldwide, it is 
noted and it is being passed on to others for replication.
    Two million dollars is going to make a definite improvement 
in what they are able to do and expand the numbers. They 
probably do have a greater need, but I do not know what the 
total number would be on that, but I know that this will make a 
tremendous improvement.
    Senator Murkowski. When I met with Dr. Grim, not only here 
in Washington, but up in the State, we had a great opportunity 
to talk about his focus on prevention, which I am very, very 
supportive of. What is contained in this budget that helps us 
with the prevention component as it relates to health care?
    Mr. Hartz. From the prevention standpoint, in the Health 
Promotion and Disease Prevention [HPDP] funds that we have 
identified, we are looking to expand from 25, the programs that 
we have currently in place, up to 50, to target special health 
promotion, disease prevention activities that we can learn from 
and further replicate.
    We also have the additional $50 million that has just come 
in, to the diabetes program. That amount is going to be a 
tremendous benefit to us in dealing with prevention and public 
health activities. Obesity is the precussor for so, so many 
things. Additionally, we are making inroads through the 
National Diabetes Program with the Department of Agriculture 
and the kinds of foods that go into the schools in Indian 
country. We are working with a number of other entities, and 
even the private sector, on how we can acquire resources to 
address the diabetes problem and further amplify our efforts in 
prevention and public health.
    Senator Murkowski. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    I thank this panel for appearing today. We will now go to 
panel 2, Victoria Vasques, director, Office of Indian 
Education; and Michael Liu, the assistant secretary, Public and 
Indian Housing; David Garman, assistant secretary, Energy 
Efficiency and Renewable Energy; and Tracy Henke, the deputy 
associate attorney general.
    We will just combine both of these panels in the interest 
of time. We will proceed as it is listed on the docket here, 
with Ms. Vasques starting. To all of the panelists, if you 
would like to abbreviate, we would appreciate that.
    Ms. Vasques, would you proceed.

   STATEMENT OF VICTORIA VASQUES, DIRECTOR, OFFICE OF INDIAN 
   EDUCATION, DEPARTMENT OF EDUCATION, ACCOMPANIED BY CATHIE 
MARTIN, GROUP LEADER; LONNA JONES, ACTING DIRECTOR, ELEMENTARY, 
  SECONDARY AND VOCATIONAL EDUCATION, DIVISION OF THE BUDGET 
                            SERVICE

    Ms. Vasques. Good morning, Mr. Chairman and members of the 
committee. On behalf of Secretary Paige, I thank you for the 
opportunity to discuss our fiscal year 2005 budget request for 
the Department of Education, especially with programs that 
address and serve the needs of American Indians, Alaska Natives 
and Native Hawaiians.
    I also request that my written statement be entered for the 
record
    The Chairman. Without objection, it will be in the record. 
All of the statements, in fact, will be included in the record.
    Ms. Vasques. My name is Victoria Vasques, and I am the 
deputy under secretary and director for the Office of Indian 
Education. In this capacity, I oversee the programs that 
support the efforts of local education agencies, Indian tribes 
and organizations that assist American Indian and Alaska Native 
students in achieving to the same high standards as all our 
students.
    The Department of Education, led by Secretary Paige, is 
strongly committed to providing resources that support the No 
Child Left Behind Act, and improving educational opportunities 
for all students, and Indian students are no exception.
    We recognize and reaffirm the special relationship with the 
Federal Government to American Indians and their sovereign 
tribal nations, and our commitment to educational excellence 
and opportunity.
    Over the past year, there have been a number of positive 
developments in the Department. I would like to just go over a 
few. The Secretary elevated the Office of Indian Education so 
that it now reports directly to the Under Secretary of 
Education. The National Advisory Council on Indian Education 
charter has been authorized through 2007, and candidates, which 
have been recommended by the Indian communities, are waiting 
presidential appointment.
    The Secretary visited the Gila River Indian community a few 
months ago, where he toured the community's new Early Childhood 
Education Center and awarded $750,000 to help prepare our 3- 
and 4-year-old students for kindergarten. Also, we are working 
in partnership with our tribal education departments and the 
BIA to improve our program services.
    Working with each of you, the Department wants to make it 
possible for every child, including Indian children, to be well 
prepared academically and ensure that the future generations of 
Indian students are not left behind. As you know, in a 
bipartisan effort 2 years ago the President launched the most 
important reform of public education by signing into law the No 
Child Left Behind Act. The law is based on stronger 
accountability, more choices for parents and students, greater 
flexibility for States and school districts, and the use of 
instruction that has been proven effective through 
scientifically based research. The overall goal is to ensure 
that every student, including American Indians, Alaska Natives 
and Native Hawaiians, will be proficient in reading and 
mathematics.
    Indian students will continue to benefit from major 
initiatives in the NCLB Act, and many programs at the 
Department help to ensure that our students have full access to 
these and other reforms to improve education.
    Overall, estimates show the Department programs provide 
nearly $1 billion in direct support specifically for American 
Indians and Alaska Natives. In addition, significant funds are 
provided to Indian students who receive services through 
Federal programs such as title I grants to our local education 
agencies, our IDEA State grants which also provide services to 
other disadvantaged populations.
    The 2005 budget request includes a number of programs and 
initiatives that focus specifically on helping Indian students 
achieve. The 2005 budget request for the Department's Indian 
education programs is $120.9 million. These programs, which are 
administered by my office, include formula grants to school 
districts, competitive special programs and national 
activities.
    We are requesting $95.9 million for Indian education 
formula grants to school districts. This program is one vehicle 
for addressing the unique educational and culturally related 
needs of Indian children. These grants supplement the regular 
school program, helping Indian children improve their academic 
skills, raise their self-confidence, and participate in 
enrichment programs and activities that otherwise would be 
unavailable. The requested level would provide an estimated 
per-pupil payment of $203 for approximately 472,000 students in 
almost 1,200 school districts and BIA schools.
    Our request for special programs for Indian children is 
$19.8 million. Approximately $10 million will support our 
demonstration grants that focus on school readiness for Indian 
preschool children and college prep programs. In addition, the 
2005 request will provide over $9 million to continue two 
training efforts under our Professional Development Program: 
First, the American Indian Teacher Training Corps; second, the 
American Indian Administrator Corps initiatives. Both programs 
are designed to provide full State certification and in-service 
support to these new Indian teachers and Indian administrators.
    We are requesting approximately $5.2 million for research 
evaluation data collection and technical assistance related to 
Indian education. Fiscal year 2005 funds would be used to 
continue support for the third phase of the National Indian 
Education Study that will collect data through the National 
Assessment of Education Progress on American Indian and Alaska 
Native 4th- and 8th-grade students' performance in math and 
reading. Funds would also be used to continue research grants 
and data collection initiated in earlier years and to promote 
ongoing program improvement for Indian education programs.
    In addition to the Indian education programs I have just 
mentioned, the Department also supports the education of Indian 
students through other programs. The written statement 
describes our proposal for each of them, but I would like to 
touch on just a couple highlights.
    Title I. Title I provides supplemental education funding to 
local education agencies and schools, especially in our high-
poverty areas to help more than 15 million educationally 
disadvantaged students, and included an estimated 260,000 
Indian children, to learn at the same high standards as other 
students.
    It is important to note that in our school districts, title 
I funds benefit many of our Indian students. The Department is 
requesting $13.3 billion for title I grants to local education 
agencies in fiscal year 2005, a 52-percent increase since the 
passage of NCLB. Under a statutory set-aside of 1 percent for 
the BIA and outlying areas, the BIA receives approximately 
$97.9 million, an increase of more than $7.8 million.
    Reading First is a comprehensive effort to implement the 
findings of high quality research on reading and reading 
instruction, helping all children read well by the third grade, 
one of the Administration's highest priorities for education. 
Providing consistent support for reading success from the 
earliest age has critically important benefits. Under this 
formula program, the BIA will receive .05 percent of the State 
grants appropriated, approximately $5.6 million, an increase of 
$500,000.
    Special ed grants. Special education grants to the States' 
programs provide formula grants to meet the excess cost of 
providing special education and related services to children 
with disabilities. Under the budget request of a little more 
than $11 billion, the Department would provide approximately 
$83.2 million to the BIA, more than a $1-million increase, to 
help serve approximately 7,500 Indian students.
    In conclusion, the 2005 budget request for the Department 
of Education programs serving American Indians, Alaska Natives 
and Native Hawaiians supports the President's overall goal of 
ensuring educational opportunity for all students.
    I thank you for the opportunity to appear before the 
committee. My colleagues that are here with me today and I are 
happy to respond to any of your questions.
    [Prepared statement of Ms. Vasques appears in appendix.]
    The Chairman. Thank you.
    Mr. Liu.

   STATEMENT OF MICHAEL LIU, ASSISTANT SECRETARY, PUBLIC AND 
  INDIAN HOUSING, DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT

    Mr. Liu. Good morning, Mr. Chairman, Mr. Vice Chairman. 
Thank you for inviting me to provide comments on the 
Administration's fiscal year 2005 budget.
    My name is Michael Liu, and I am the assistant secretary 
for Public and Indian Housing. I am responsible for the 
management, operation and oversight of HUD's Native American 
programs. I will summarize my written testimony.
    We serve these tribes directly or through their tribally 
designated housing entities by providing grants and loan 
guarantees designed to support affordable housing, community 
and economic development, and other types of eligible purposes. 
Our partners are diverse. They are located on Indian 
reservations and Alaska Native villages, and other traditional 
Indian areas, and most recently on the Hawaiian homelands.
    You may recall that when I testified before you 2 years 
ago, I noted that there appeared to be a backlog of funding not 
obligated or expended by tribes. Since that time, on most 
recent reports which track and are recorded by the Department's 
electronic line of credit control system, LOCCS, now shows that 
80 percent of all grant funds appropriated through NAHASDA have 
been obligated, and over 88 percent in fact have been disbursed 
and expended. Obviously, the tribes have responded, both in 
terms of their actions, as well as in terms of providing us 
better information so that we know now that the dollars are 
being spent on a timely basis.
    An overall synopsis of the budget will follow. The 
President's budget proposes a total of $739 million 
specifically for Native American, Alaska Native and Native 
Hawaiian housing through HUD. There is $647 million authorized 
under the Native American Housing Assistance and Self-
Determination Act. Of that amount, roughly $640 million is for 
direct formula allocations through the Indian Housing Block 
Grant Program. $1.85 million in credit subsidy will leverage 
$17.9 million in loan guarantee authority through the Title VI 
Loan Guarantee Program. $71.575 million is for grants under the 
Indian Community Development Block Grant Program, and $1 
million in credit subsidy will be provided to support $29 
million in loan guarantee authority through the section 184 
Indian Housing Loan Guarantee Fund.
    The Native Hawaiian community will receive through the 
Department of Hawaiian Homelands $9.5 million for the Native 
Hawaiian Housing Block Grant Program, $1 million for the 
section 184(a) Native Hawaiian Loan Guarantee Fund, which will 
leverage $37.4 million in loan guarantees. There is a total of 
$5.4 million available for training and technical assistance to 
support these programs.
    Finally, the Department requests a total of $6.5 million to 
support American Indian, Alaska Native and Native Hawaiian-
oriented higher education institutions.
    To focus on a couple of items very quickly, sir, the Title 
VI Guarantee Loan Fund and Title 184 Guarantee Loan Funds are 
supported this year, but I do want to note that there is a 
significant accumulation of backlog credit subsidy and credit 
authority. For the title VI program, the amount is close to 
$400 million; for the 184 program, it is in excess of $500 
million. To that end, should there be credit subsidy still in 
existence by the end of 2005, the budget does propose the 
rescission of a total of $54 million in credit subsidy for 
these programs. However, that will still leave significant 
amounts of both credit subsidy and commitment authority for 
both the title VI and the 184 program. For title VI, it would 
be $34.6 million in commitment authority available, and for 
184, $226 million available.
    Let me also mention that the Native Hawaiian Housing Block 
Grant Program has been proceeding very well. The Department of 
Hawaiian Homelands over two administrations of two different 
parties have been very good in expending dollars and having 
specific projects. We can provide information if needed by the 
committee on that.
    Finally, Mr. Chairman, let me mention that we have just 
concluded last month 1 year-long, seven separate meeting 
process regarding the formula funding for NAHASDA, a negotiated 
rulemaking in which I was involved at every meeting. I believe 
was successfully concluded. It addressed some very knotty 
issues such as minimum funding, over-and under-counting of 
formula current assisted stock, and definitions such as 
substantial housing services. I want to take the chance to 
thank all of the tribal leaders who were involved. Things went, 
I thought, very well.
    This concludes my remarks. We stand ready to answer any 
questions.
    Thank you.
    [Prepared statement of Mr. Liu appears in appendix.]
    The Chairman. Thank you.
    I am going to submit my questions for the record. That was 
a call to vote. So we will be taking about a 10-minute recess. 
When we reconvene, Senator Inouye will chair, then.
    Thank you.
    [Recess.]
    Senator Inouye [assuming Chair]. May I now call upon Mr. 
Garman, Assistant Secretary for Energy Efficiency and Renewable 
Energy, Department of Energy.

   STATEMENT OF DAVID GARMAN, ASSISTANT SECRETARY OF ENERGY 
     EFFICIENCY AND RENEWABLE ENERGY, DEPARTMENT OF ENERGY

    Mr. Garman. Thank you, Mr. Chairman. The hour is late and I 
will be brief.
    I am the assistant secretary who leads the Department of 
Energy's renewable energy and energy efficiency activities. 
Today I will attempt to represent the Department's activities 
of greatest interest to American Indian tribes and Alaska 
Natives, beginning with those in my office.
    The Office of Energy Efficiency and Renewable Energy has a 
tribal energy program. We use that program to assist tribes in 
assessing the feasibility of renewable energy projects on 
tribal lands. We also use that program to help tribes develop 
renewable energy projects of their own, to assist them with 
their energy planning needs, and to promote energy education 
and training through tribal colleges and other means.
    The President's 2005 budget request for the Tribal Energy 
Program is $5.5 million, a 12-percent increase over the amount 
appropriated last year. I must note, however, that two-thirds 
of our fiscal year 2004 Tribal Energy Program was directed to 
three specific recipients as a consequence of an appropriations 
earmark, so our ability to assist a greater number of tribes 
and to distribute the funding competitively will be severely 
compromised this year.
    Another program which has proven to be extremely beneficial 
to tribes is our low-income weatherization program. The 
President's fiscal year 2005 budget seeks a $64-million 
increase for weatherization. If Congress agrees to that 
request, since it is a formula grant, the funding that goes to 
tribes under this program will rise as well.
    Elsewhere in the Department, the cleanup of Department of 
Energy sites is an issue of tremendous concern to many tribes. 
In the continuing effort to accelerate the cleanup of these 
sites, the President has proposed $7.43 billion, or a 6.1-
percent increase to the Office of Environmental Management. The 
Office of Environmental Management also works directly with 
tribes, consulting with and involving them in risk reduction 
and cleanup activities. Specific support for tribal efforts 
totaled just over $6 million in fiscal year 2004, and the 
President's budget requests an equivalent amount for fiscal 
year 2005.
    We have other examples as well. The Office of Nuclear 
Energy provides $650,000 per year to the Shoshone-Bannock 
Tribes for air quality monitoring, environmental sampling, 
emergency planning and response, and cultural protection 
activities at the Idaho National Laboratory. The Office of 
Science provides $700,000 to Indian tribes and Alaska Natives 
as a consequence of education outreach and technical support 
activities associated with its atmospheric radiation 
monitoring, or ARM, program. The Office of Civilian Radioactive 
Waste Management maintains a $500,000-per year program to 
consult with affected tribes on issues associated with the 
transportation of waste to Yucca Mountain.
    Finally, Mr. Chairman, DOE's Office of Small and 
Disadvantaged Business Utilization helps small businesses, 
including Native American businesses, bid for contracts from 
the Department of Energy. One recent example is a $26-million 
2-year contract with an Alaska Native-owned firm to participate 
in the management and operation of the Strategic Petroleum 
Reserve. If memory serves, the Department procures about $19 
billion worth of goods and services each year, and we are 
making an effort to un-bundle those contracts in such a way to 
ensure that we have ample opportunities for small and 
disadvantaged businesses, including Indian and Alaska Native 
firms, to compete.
    With that, Mr. Chairman, I would be pleased to answer any 
questions that the committee might have, either now or in the 
future.
    Thank you for this opportunity.
    [Prepared statement of Mr. Garman appears in appendix.]
    Senator Inouye. Thank you very much, Mr. Garman.
    May I now call on the deputy associate attorney general at 
the Department of Justice, Tracy Henke.
    Ms. Henke.

 STATEMENT OF TRACY HENKE, DEPUTY ASSOCIATE ATTORNEY GENERAL, 
                     DEPARTMENT OF JUSTICE

    Ms. Henke. Thank you, Senator Inouye.
    My name is Tracy Henke. I am the deputy associate attorney 
general for the Department of Justice. It is a pleasure to be 
here today to discuss the Justice Department's proposed fiscal 
year 2005 budget priorities for Indian country.
    As all of us are aware, the needs of Indian tribal 
governments in combating crime and violence continue to be 
great. As the Department stated to this committee last year, 
the President and the Attorney General remain committed to 
addressing the most serious law enforcement problems in Indian 
country, including substance abuse, domestic violence and other 
violent crimes, and to ensuring that federally recognized 
Indian tribes are full partners in this effort.
    The Administration's continued commitment to federally 
recognized American Indian communities is reflected in the 
President's fiscal year 2005 request of $49 million for the 
Office of Justice programs and its Office on Violence Against 
Women, and $20 million for the Department's COPS office. The 
President's budget request for fiscal year 2005 will allow the 
Department to continue most of our tribal programs near the 
fiscal year 2004 level.
    Many of OJP's tribal programs focus on alcohol and drug 
abuse, which continue to be a major problem in Indian country. 
The President's fiscal year 2005 budget request is $4.2 million 
for the Indian Alcohol and Substance Abuse Demonstration 
Program. In addition, OJP works to ensure that federally 
recognized Indian tribes and Native Alaska villages and 
corporations benefit from the Drug Court Program which provides 
funds for drug courts that provide specialized treatment and 
rehabilitation for nonviolent offenders. In the fiscal year 
2005 budget, we have requested $67.5 million for this overall 
program.
    It also, sir, continues to be a sad fact that American 
Indian and Alaska Native women suffer disproportionately from 
domestic violence and sexual assault. For fiscal year 2005, the 
Department is requesting a total of $19.8 million for all of 
our tribal violence against women programs. This is a $1.3-
million increase over the fiscal year 2004 level.
    Tribal communities also benefit from funds available 
through the Department's Victims Assistance in Indian country 
Discretionary Grant Program, through our Office for Victims of 
Crime. These funds can be used for many different services, 
including emergency shelters and counseling. In addition, the 
Children's Justice Act Program provides funds to improve the 
investigation, prosecution and handling of child abuse cases in 
Indian country.
    For fiscal year 2005, the President's budget requests $20 
million for the COPS office to address pressing needs in tribal 
law enforcement. The COPS office with its training partners 
also has developed specialized culturally relevant basic 
community policing training for agencies receiving grants from 
the COPS office. To date, 149 tribal law enforcement agencies 
have received basic community policing training.
    One of the many challenges that federally recognized Indian 
tribes and Native Alaskan villages and corporations face is 
collecting reliable data on arrests, victimizations and other 
criminal justice-related issues. Since 2001, the Department has 
provided assistance to create the Tribal Justice Statistics 
Assistance Center, which became operational last month. The 
Center works with tribal justice agencies to develop and 
enhance their ability to generate and use criminal and civil 
justice statistics.
    OJP plans on continuing its assistance for this project, as 
well as the National Tribal Justice Resource Center in Boulder, 
CO which provides tribal justice systems with assistance that 
is comparable to that available to Federal and State court 
systems.
    Finally, one of the most important duties of the Department 
is the prosecution of Federal crimes in Indian country. 
Responsibility for prosecuting Federal cases in Indian country 
falls on the U.S. attorneys' offices. The U.S. attorneys work 
with and through local task forces to address the needs of 
Indian country law enforcement on pressing issues such as gang 
violence, drug and gun crimes. In fiscal year 2003, the U.S. 
attorneys' offices filed 679 cases pertaining to violent crime 
in Indian country. These offenses included homicides, rapes, 
aggravated assaults, and child sexual abuse. Prosecuting crimes 
in Indian country is estimated to cost $19 million and 145 work 
years during the 2004 and 2005 fiscal years.
    Additional efforts to address Indian country issues include 
the Attorney General's Advisory Committee, the Native American 
Issues Subcommittee, which consists of 26 U.S. attorneys who 
have significant amount of Indian country in their respective 
districts. The committee meets regularly to discuss its current 
priorities for Indian country, which include terrorism, violent 
crime, white collar crime and resolution of jurisdictional 
disputes.
    In addition, through the Office of Justice Programs, the 
Department is also working to build State-tribal relations in 
law enforcement and justice communities. Partnering with the 
International Association of Chiefs of Police and its Indian 
country law enforcement section, OJP is sponsoring regional 
meetings to highlight promising tribal-State efforts throughout 
the Nation. Two meetings have already occurred and for two 
more, the planning is already underway.
    Attorney General Ashcroft has pledged to honor our Federal 
trust responsibility and to work with sovereign Indian nations 
on a government-to-government basis. The Attorney General and 
the entire Justice Department will honor this commitment and 
continue to assist tribal justice systems in their effort to 
promote safe communities. We are confident that our current 
activities and our fiscal year 2005 proposed budget reflect 
these priorities.
    Once again, sir, thank you for the opportunity to be here, 
and I look forward to answering any questions.
    [Prepared statement of Ms. Henke appears in appendix.]
    Senator Inouye. Thank you very much, Ms. Henke.
    Before proceeding, I would like to thank all of you and 
commend you for your service to our country.
    May I first ask a few questions of Ms. Vasques. What is 
your rationale for eliminating funds authorized by the use of 
title VII(b) funds for construction, renovation and 
modernization of public schools serving a predominantly Native 
Hawaiian student body? I notice that the budget eliminates 
funding for this purpose.
    Ms. Vasques. In the 2005 budget the Administration is not 
proposing to continue special appropriations language that was 
added by Congress in the 2003 and 2004 appropriations bills so 
that all funds can be used to continue the provision of 
education-related services to the Native Hawaiian population.
    Senator Inouye. Was that a matter of priorities? Or did you 
just decide not to follow the direction of the Congress?
    Please identify yourself?
    Ms. Jones. I am Lonna Jones, acting director of the Budget 
Office in the Department of Education for Elementary, Secondary 
and Vocational Programs. The request for the education for 
Native Hawaiian Programs does not include the special language 
for construction, since the budget priority is on using all the 
funds requested for programs.
    Senator Inouye. So the program's congressionally initiated 
priorities may not be high.
    May I now go to Michael Liu, assistant secretary. The 
Housing Block Grant Program has been funded at the same level 
over the last several years, and the President's proposal for 
fiscal year 2005 request is no exception at $647 million. Given 
the need for habitable and safe housing in Indian country, 
increasing inflation, new construction costs, funding at the 
same level actually represents a decrease, does it not?
    Mr. Liu. Mr. Chairman, given the competing interests that 
we have within the Department, within the Administration, we 
believe that the proposal of $647 million, which does represent 
essentially flat funding in relation to 2004 and 2003, is a 
very fair offering for the program. Clearly, there is great 
need in Indian country. There is no question about it. But we 
believe that what we have proposed here certainly will continue 
the progress that has occurred in the program.
    I think the amount also has to be associated with looking 
at how we can further, and I mentioned this in my earlier 
comments, the use of both the section 184 Loan Guarantee 
Program and title VI programs, where we have a significant 
amount of unused credit subsidy and commitment authority. We 
have made it a high priority within public and Indian housing 
and the Office of Native American Programs to make much greater 
use of that resource so that we can leverage our actual 
budgeted dollars, sir.
    Senator Inouye. There are a couple of elements. First, the 
population of Indian country has grown exponentially. And 
second, like all societies, you will find a spectrum that 
ranges from the very wealthy Indians and the very, very poor 
Indians. Now, wealthy Indians can easily enter into loan 
guarantee programs, but when you have Indians with not a single 
bank account, how do you propose to help them with loan 
guarantee programs?
    Mr. Liu. Sir, I have engaged personally in discussion with 
many of the leaders of the tribal housing authorities. We still 
need to do a lot more in educating both the tribal leaders who 
are involved in housing and banks as to use of the guarantee 
loan programs, which do permit, which can, in association with 
other programs that are offered by banks, other programs that 
are offered by the GSEs, to help reach down to a lower income 
level than currently exists, in terms of the perception as to 
what can be done and what groups can be used.
    We do estimate that we can do over $200 million in section 
184 loans this year with the market that is available. We just 
have not worked hard enough, and I mean HUD, the tribes and the 
banks, to make that happen, sir.
    Senator Inouye. I agree with you. It all sounds good, 
especially if someone is going to college and can understand 
the language, but not all of us have been so blessed. But one 
thing we know, Indian housing is the worst in the United 
States. No other ethnic group can compare with it. For that 
matter, it compares rather favorably with third world 
countries. So I would hope that your agency will take a special 
look at this, and at least take into consideration the 
increasing population and the fact that there are more people 
in poverty in Indian country than any other area of the 
country.
    Mr. Liu. Yes, sir; thank you.
    Senator Inouye. I would like to thank you, Mr. Liu. Because 
of time, I am just going to ask a few questions of all.
    Mr. Garman, the President's budget request for 2005 for the 
intergovernmental activities of the Energy Supply Program is 
$16 million. Part of this program funds the Tribal Energy 
Program which helps Native Americans develop renewable energy 
resources on their lands. How does the President's budget 
request support this vital program?
    Mr. Garman. We propose to increase that funding by 12 
percent. Last year, I believe it was funded at just under $5 
million. This year, we proposed to spend $5.5 million. We would 
like to increase that spending.
    Senator Inouye. As one who has been involved in energy 
programs involving Indian lands and Indian resources, do you 
believe that Native Americans are getting a fair return for 
their resources?
    Mr. Garman. There is so much more that can be done. Native 
Americans, Indian country, probably comprises about 5 percent 
of the Nation's land area, but this land containing 10 percent 
of the energy resources in the Nation, and an even higher 
percentage of the renewable energy resources in the Nation. Our 
focus has been on that renewable energy. The tribes in the 
Great Plains, the Dakotas, have a tremendous wind energy 
resource. We have collaborated with the Rosebud Sioux on the 
construction of the first utility-scale wind project in Indian 
country.
    It is very new. We are all learning. But it is our vision 
that we can help Indians become entrepreneurs in renewable 
energy and become ones who have this tremendous resource and 
develop it in a manner which is consistent with their cultural 
principles and their environmental values, to bring a lot more 
of that renewable energy on line.
    Senator Inouye. In the meantime, do you believe that they 
are being shortchanged or getting their fair share?
    Mr. Garman. I think the import of your question points 
essentially to issues of royalty management and getting a fair 
return on the investment of energy resources from Indian 
country. I know that this is an area under litigation in the 
Department of the Interior. As a matter under litigation, I 
would prefer not to speak on that.
    I will tell you, however, the Department of Energy held a 
tribal summit, the first of many annual tribal summits that we 
are going to be holding, just two days ago. I heard a 
remarkable story from Southern Utes who had taken the energy 
management on their own lands, into their own hands. They had 
developed the capacity to do that. I think that they have done 
a much better job than anybody else that I am familiar with. 
They are getting a higher return on their investment than many 
other Indian tribes around the country are enjoying.
    Senator Inouye. I realize this is not in your area of 
responsibility, but I just wanted to check because I saw not 
too long ago a comparison of company A doing business with 
certain private sector, and so much in returns; the same 
company doing business in the same area with an Indian tribe 
and that Indian tribe gets less than one-half of the return 
that goes to others. That seems to be rather commonplace, 
doesn't it?
    Mr. Garman. I have seen many reports along those lines. 
Yes, sir.
    Senator Inouye. I hope that your agency is going to do 
everything to help alleviate this problem.
    Mr. Garman. Yes, sir.
    Senator Inouye. May I now ask the Justice Department a few 
questions, if I may. You spoke of the COPS program. It is the 
committee's understanding that the COPS grants are provided for 
3 to 5 years. Am I correct?
    Ms. Henke. Often, sir, yes they are.
    Senator Inouye. How many tribal grants are expected to 
expire this year and in the fiscal year 2005?
    Ms. Henke. Sir, I do not have that number with me. I am 
happy to get that for you, but that is one of the ways that the 
$20 million COPS request that is in the President's budget will 
be used, to extend some of those grants that are scheduled to 
expire.
    Senator Inouye. And if no additional grants are provided, 
all of these officers, many of them, will be unemployed.
    Ms. Henke. It is a possibility, sir, if the grant is not 
extended and if the individual tribe has not identified tribal 
resources to extend those officers. It is that possibility. The 
COPS office has worked, though, and once again it is one of the 
reasons for the $20 million request, to extend some of those 
grants that are scheduled to expire.
    Senator Inouye. Can you go back and see if you can't add a 
few more dollars?
    Ms. Henke. One of the things that the COPS office and the 
Office of Justice Programs, is doing is working once again with 
the Tribal Resource Center and the statistics center, et 
cetera, to find ways to address those issues in Indian country. 
It is another reason that we are sponsoring the regional 
meetings with the IACP, the International Association of Chiefs 
of Police, to identify best practices so we can identify ways 
to help Indian country in addressing those law enforcement 
issues, including salaries.
    Senator Inouye. I bring this up because your agency just 
recently issued a report that suggested that American Indians 
and Alaska Natives experience violence at a higher rate 
compared to the country as a whole.
    Ms. Henke. Yes, sir.
    Senator Inouye. And yet we have decreased COPS funding by 
$10 million. This time we are decreasing it by $5 million. In 
many cases, the terms of the grants are expiring. So though we 
have the worst violence in the United States, we are going to 
have no COPS, unless my mathematics are a little wrong. I hope 
you are going to do something about this.
    Ms. Henke. Once again, the $20 million request, as well as 
resources through the Office of Justice Programs are made 
available to the tribal communities to address law enforcement 
issues, as well as prosecution and adjudication. So yes, we 
look forward to working with the committee and the Congress in 
addressing those funding issues.
    Senator Inouye. According to your Justice Department's most 
recent report, new admissions to jails in Indian country, 
increased by 22 percent from June, 2001 to 2002. Over 33 
percent of the offenders were held in the detention for violent 
offenses; 15 percent for domestic violence; and 11 percent for 
driving under the influence. Now, you have eliminated funding 
for detention facilities. What is the rationale for this? The 
incarcerated population seems to grow, but we are cutting down 
on the housing.
    Ms. Henke. Sir, a couple of years ago there was a report 
made available through the Department of Justice that did 
address the bed space in our prisons in Indian country. With 
the prison construction that we had on line and that was being 
proposed, we at the time thought that it would address these 
issues with once again what was coming on line.
    In addition to that, though, in the past when the 
Administration has requested funds for the Tribal Prison 
Construction Program it has been 100 percent earmarked by the 
Congress and we have worked very hard to address those needs 
that Congress has identified for us. But it has limited our 
flexibility in providing some of those resources to some of the 
areas that might have greater need.
    Senator Inouye. As you are aware, Congress authorized the 
Stop Violence Against Indian Women Discretionary Grant Program 
in 1994, 10 years ago. Its purpose is to provide government 
funds to strengthen the tribal governments in response to 
violence against women. Under the law, tribes are eligible for 
100 percent of Federal funds because a non-Federal match waiver 
is contained in the law. Most recently, your Department has 
interpreted the statute as requiring tribes to use only funds 
appropriated by Congress as matching funds, when this is not 
required in the law.
    How do you propose to find these matching funds when other 
Federal agencies do not specifically appropriate funds to 
tribes for violence against women? Where do you go?
    Ms. Henke. What I can tell you right now is I am not 
familiar with the complete details of that. I do know that we 
have a response to the Senate and I believe also to the House 
that is currently under review. I can work to ensure that 
response is provided. We are reviewing often, I am certain 
other agencies as well, we look at the regulations that have 
been promulgated for the programs that we operate to ensure 
that they were done in full compliance with the law. That was 
something that was undertaken within the OVW programs, the 
Office on Violence Against Woman.
    So what I can assure you is I will go back and double-check 
the status of that and ensure that this committee gets a reply.
    Senator Inouye. Wonderful. I am sure the reservations will 
appreciate it very much.
    Ms. Henke. Thank you.
    Senator Inouye. My final one, may we request that the 
Department provide technical assistance to the committee, 
because we would like to draft legislation to establish a 
commission to address the framework for law enforcement in 
Indian country as it relates to homeland security. As you know, 
there are many Indian reservations along our international 
borders. We believe that these Indian nations should play an 
active role in homeland security.
    Ms. Henke. I can assure you, sir, that the Department would 
be more than happy to provide technical assistance in that 
manner. It is something that is of concern to the Department. 
Many Department officials have visited tribes that have a 
significant expanse of border with Mexico and with Canada. For 
our Native American Issues Subcommittee with the U.S. 
attorneys, that issue has been a prime focus for them. I 
actually went with them when they visited the border with the 
tribes down in Arizona and New Mexico.
    So it is a priority for the Department. We would be happy 
to provide technical assistance.
    Senator Inouye. I thank you very much, Ms. Henke.
    Ms. Henke. Thank you.
    Senator Inouye. I thank all of you very much.
    The record will remain open until the March 9. If you want 
to have any addendum provided or corrections made, please feel 
free to do so.
    Until then, the committee is adjourned.
    [Whereupon, at 11:22 a.m. the committee was adjourned, to 
reconvene at the call of the Chair.]


=======================================================================


                            A P P E N D I X

                              ----------                              


              Additional Material Submitted for the Record

=======================================================================


Prepared Statement of Gary J. Hartz, Acting Director, Office of Public 
                     Health, Indian Health Service

    Mr. Chairman and members of the committee: Good morning. I am Gary 
Hartz, acting director of the Office of Public Health. Today I am 
accompanied by Mr. Robert G. McSwain, Director, office of Management 
Support and Mr. Douglas Black, Director, office of Tribal Programs. We 
are pleased to have this opportunity to testify on the President's 
fiscal year 2005 budget request for the Indian Health Service.
    The IHS has the responsibility for the delivery of health services 
to more than 1.6 million members of federally-recognized American, 
Indian (AI) tribes and Alaska Native (AN) organizations. The locations 
of these programs range from the most remote and inaccessible regions 
in the United States to the heavily populated and sometimes inner city 
areas of the country's largest urban areas. For all of the AI/ANs 
served by these programs, the IHS is committed to its mission to raise 
their physical, mental, social, and spiritual health to the highest 
level, in partnership with them.
    Secretary Thompson, too, is personally committed to improving the 
health of AI/ANs. To better understand the conditions in Indian 
country, the Secretary or Deputy Secretary has visited tribal leaders 
and Indian reservations in all twelve IHS areas, accompanied by senior 
HHS staff. The Administration takes seriously its commitment to honor 
its obligations to AI/ANs under statutes and treaties to provide 
effective health care services.
    Through the government's longstanding support of Indian health 
care, the I/T/U Indian health programs have demonstrated the ability to 
effectively utilize available resources to improve the health status of 
AI/ANs. For example, there have been dramatic improvements in reducing 
mortality rates for certain causes, such as: from the 3 year periods of 
1972-74 to 1999-2001, maternal deaths have decreased 58 percent, infant 
mortality has decreased 64 percent, and unintentional injuries 
mortality have decreased 56 percent, between the period 1972-99. More 
recently, ,the funding for the Special Diabetes Program for Indians has 
significantly enhanced diabetes care and education in AI/AN 
communities, as well as building the necessary infrastructure for 
diabetes programs. Intermediate outcomes that have been achieved since 
implementation of the Special Diabetes Program for Indians include 
improvements in the control of blood glucose, blood pressure, total 
cholesterol, LDL cholesterol, and triglycerides. In addition, treatment 
of risk factors for cardiovascular disease has improved as well as 
screening for diabetic kidney disease and diabetic eye disease.
    Although we are very pleased with the advancements that have been 
made in the health status of AI/ANs, we recognize there is still 
progress to be made. As the Centers for Disease Control and Prevention 
recently reported, the AI/AN rates for chronic diseases, infant 
mortality, sexually transmitted diseases, and injuries continue to 
surpass those of the white population as well as those of other 
minority groups. The 2002 data show that the prevalence of diabetes is 
more than twice that for all adults in the United States, and the 
mortality rate from chronic liver disease is more than twice as high. 
The sudden infant death syndrome (SIDS) rate is the highest of any 
population group and more than double that of the white population in 
1999. Rates of chlamydia are 5.7 times higher than in whites, and the 
gonorrhea rate is 4 times higher than in whites. AI/AN death rates for 
unintentional injuries and motor vehicle crashes are 1.7 to 2.0 times 
higher than the rates for all racial/ethnic populations, while suicide 
rates for AI/AN youth are 3 times greater than rates for white youth of 
similar age. Maternal deaths among AI/ANs are nearly twice as high as 
those among white women.
    Complicating the situation is the type of health problems 
confronting AI/AN communities today. The IHS public health functions 
that were effective in eliminating certain infectious diseases, 
improving maternal and child health, and increasing access to clean 
water and sanitation, are not as effective in addressing health 
problems that are behavioral in nature, which are the primary factors 
in the mortality rates noted previously. other factors impacting 
further progress in improving AI/AN health status are the increases in 
population and the rising costs of providing health care. The IHS 
service population is growing by nearly 2 percent annually and has 
increased 24 percent since 1994.
    This budget request for the IHS will assure the provision of 
essential primary care and public health services for AI/ANs. For the 
7th year now, development of the health and budget priorities 
supporting the IHS budget request originated at the health services 
delivery level. As partners with the IHS in delivering needed health 
care to AI/ANs, Tribal and Urban Indian health programs participate in 
formulating the budget request and annual performance plan. The I/T/U 
Indian health program health providers, administrators, technicians, 
and elected tribal officials, as well as the public health 
professionals at the IHS Area and Headquarters offices, combine their 
expertise and works collaboratively to identifying the most critical 
health care funding needs for AI/AN people.
    The President's budget request for the IHS is an increase of $45 
million above the fiscal year 2004 enacted level. The request will 
assist I/T/U Indian health programs to maintain access to health care 
by providing $36 million to fund pay raises for Federal employees as 
well as funds to allow Tribal and Urban programs to provide comparable 
pay increases to their staff. Staffing for five newly constructed 
health care facilities is also included in the amount of $23 million. 
When fully operational, these facilities will double the number of 
primary provider care visits that can be provided at these sites and 
also provide new services. The budget also helps maintain access to 
health care through increases of $18 million for contract health care 
and $2 million for the Community Health Aide /Practitioner program in 
Alaska. The increase for CHS, combined with the additional purchasing 
power provided in Section 506 of the recently enacted Medicare 
Prescription Drug, Improvement, and Modernization Act, will allow the 
purchase of an estimated 35,000 additional outpatient visits or 3,000 
additional days of inpatient care.
    As mentioned previously, the health disparities for AI/ANs cannot 
be addressed solely through the provision of health care services. 
Changing behavior and lifestyle and promoting good health and 
environment is critical in preventing disease and improving the health 
of AI/ANs. This budget supports these activities through requested 
increases of $15 million for community-based health promotion and 
disease prevention projects, expanding the capacity of tribal 
epidemiology centers, and providing an estimated 22,000 homes with safe 
water and sewage disposal. An additional $4.5 million is requested for 
the Unified Financial Management System. This system will consolidate 
the Department's financial management systems into one, providing the 
Department and individual operating division management staff with more 
timely and coordinated financial management information. The requested 
increase will fully cover the IHS share of costs for the system in 
fiscal year 2005 without reducing other information technology 
activities.
    The budget request also supports the replacement of outdated health 
clinics and the construction of staff quarters for health facilities, 
which are essential components of supporting access to services and 
improving health status. In the long run, this assures there are 
functional facilities, medical equipment, and staff for the effective 
and efficient provision of health services. As you know, the average 
age of IHS facilities is 32 years. The fiscal year 2005 budget includes 
$42 million to complete construction of the health centers at Red Mesa, 
AZ and Sisseton SD; and complete the design and construction of staff 
quarters at Zuni, NM and Wagner, SD. When completed, the health centers 
will provide an additional 36,000 primary care provider visits, replace 
the Sisseton hospital, which was built in 1936, and bring 24-hour 
emergency care to the Red Mesa area for the first time.
    The IHS continues its commitment to the President's Management 
Agenda through efforts to improve the effectiveness of its programs The 
agency has completed a Headquarters restructuring plan to address 
Strategic Management of Human Capital. To Improve Financial Performance 
and Expand E-Government, the IHS participates in Departmental-wide 
activities to implement a Unified Financial Management System and 
implement e-Gov initiatives, such as e-grants, Human Resources 
automated systems, et cetera. This budget request reflects Budget and 
Performance Integration at funding levels and proposed increases based 
on recommendations of the Program Assessment Rating Tool (PART) 
evaluations. The IHS scores have been some of the highest in the 
Federal Government.
    The budget request that I have just described provides a continued 
investment in the maintenance and support of the I/T/U Indian public 
health system to provide access to high quality medical and preventive 
services as a means of improving health status. In addition, this 
request reflects the continued Federal commitment to support the I/T/U 
Indian health system that serves the AI/ANs.
    Thank you for this opportunity to discuss the fiscal year 2005 
President's budget request for the IHS. We are pleased to answer any 
questions that you may have.

[GRAPHIC] [TIFF OMITTED] T1835.052

[GRAPHIC] [TIFF OMITTED] T1835.053

[GRAPHIC] [TIFF OMITTED] T1835.054

[GRAPHIC] [TIFF OMITTED] T1835.055

[GRAPHIC] [TIFF OMITTED] T1835.056

[GRAPHIC] [TIFF OMITTED] T1835.057

[GRAPHIC] [TIFF OMITTED] T1835.058

[GRAPHIC] [TIFF OMITTED] T1835.059

[GRAPHIC] [TIFF OMITTED] T1835.060

[GRAPHIC] [TIFF OMITTED] T1835.061

[GRAPHIC] [TIFF OMITTED] T1835.062

[GRAPHIC] [TIFF OMITTED] T1835.063

[GRAPHIC] [TIFF OMITTED] T1835.064

[GRAPHIC] [TIFF OMITTED] T1835.065

[GRAPHIC] [TIFF OMITTED] T1835.066

[GRAPHIC] [TIFF OMITTED] T1835.067

[GRAPHIC] [TIFF OMITTED] T1835.068

[GRAPHIC] [TIFF OMITTED] T1835.069

[GRAPHIC] [TIFF OMITTED] T1835.070

[GRAPHIC] [TIFF OMITTED] T1835.071

[GRAPHIC] [TIFF OMITTED] T1835.072

[GRAPHIC] [TIFF OMITTED] T1835.073

[GRAPHIC] [TIFF OMITTED] T1835.074

[GRAPHIC] [TIFF OMITTED] T1835.075

[GRAPHIC] [TIFF OMITTED] T1835.076

[GRAPHIC] [TIFF OMITTED] T1835.077

[GRAPHIC] [TIFF OMITTED] T1835.078

[GRAPHIC] [TIFF OMITTED] T1835.079

[GRAPHIC] [TIFF OMITTED] T1835.080

[GRAPHIC] [TIFF OMITTED] T1835.081

[GRAPHIC] [TIFF OMITTED] T1835.082

[GRAPHIC] [TIFF OMITTED] T1835.083

[GRAPHIC] [TIFF OMITTED] T1835.084

[GRAPHIC] [TIFF OMITTED] T1835.085

[GRAPHIC] [TIFF OMITTED] T1835.086

[GRAPHIC] [TIFF OMITTED] T1835.087

[GRAPHIC] [TIFF OMITTED] T1835.088

[GRAPHIC] [TIFF OMITTED] T1835.089

[GRAPHIC] [TIFF OMITTED] T1835.090

[GRAPHIC] [TIFF OMITTED] T1835.091

[GRAPHIC] [TIFF OMITTED] T1835.092

[GRAPHIC] [TIFF OMITTED] T1835.093

[GRAPHIC] [TIFF OMITTED] T1835.094

[GRAPHIC] [TIFF OMITTED] T1835.095

[GRAPHIC] [TIFF OMITTED] T1835.096

[GRAPHIC] [TIFF OMITTED] T1835.097

[GRAPHIC] [TIFF OMITTED] T1835.098

[GRAPHIC] [TIFF OMITTED] T1835.099

[GRAPHIC] [TIFF OMITTED] T1835.100

[GRAPHIC] [TIFF OMITTED] T1835.101

[GRAPHIC] [TIFF OMITTED] T1835.102

[GRAPHIC] [TIFF OMITTED] T1835.103

[GRAPHIC] [TIFF OMITTED] T1835.104

[GRAPHIC] [TIFF OMITTED] T1835.105

[GRAPHIC] [TIFF OMITTED] T1835.106

[GRAPHIC] [TIFF OMITTED] T1835.107

[GRAPHIC] [TIFF OMITTED] T1835.108

[GRAPHIC] [TIFF OMITTED] T1835.109

[GRAPHIC] [TIFF OMITTED] T1835.110

[GRAPHIC] [TIFF OMITTED] T1835.111

[GRAPHIC] [TIFF OMITTED] T1835.112

[GRAPHIC] [TIFF OMITTED] T1835.113

[GRAPHIC] [TIFF OMITTED] T1835.114

[GRAPHIC] [TIFF OMITTED] T1835.115

[GRAPHIC] [TIFF OMITTED] T1835.116

[GRAPHIC] [TIFF OMITTED] T1835.117

[GRAPHIC] [TIFF OMITTED] T1835.118

[GRAPHIC] [TIFF OMITTED] T1835.119

[GRAPHIC] [TIFF OMITTED] T1835.120

[GRAPHIC] [TIFF OMITTED] T1835.121

[GRAPHIC] [TIFF OMITTED] T1835.122

[GRAPHIC] [TIFF OMITTED] T1835.123

[GRAPHIC] [TIFF OMITTED] T1835.124

[GRAPHIC] [TIFF OMITTED] T1835.125

[GRAPHIC] [TIFF OMITTED] T1835.126

[GRAPHIC] [TIFF OMITTED] T1835.127

                                 <all>

</pre></body></html>
